        UNITED STATES DEPARTMENT OF STATE
        AND THE BROADCASTING BOARD OF GOVERNORS
        OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT
TO THE CONGRESS
April 1, 2013 to September 30, 2013
SUMMARY OF OIG ACCOMPLISHMENTS

                            Financial Results

   Questioned costs

    Issued during the reporting period                         $22,000

    Management decision during the reporting period          $2,737,000

   Recommendations for funds to be put to better use

    Issued during the reporting period                    $215,807,000

    Management decision during the reporting period        $84,018,000

   Investigative monetary recoveries                       $10,530,000



                        Investigative Results

   Cases opened                                                  25

   Cases closed                                                  35

   Judicial actions                                              4

   Administrative actions                                        9

   Contractor/grantee suspension and debarment actions           16

   Hotline and complaint activity                               732


   Reports issued                                                57



      Questions regarding this publication should be addressed to:
                       OIG-Reports@state.gov
              This document is available on OIG’s Web Site:
                          http://oig.state.gov
                  Department of State Publication 11462
                       Office of Inspector General


                   Cover photo: Embassy Moscow, Russia
       Photo provided by the Bureau of Overseas Buildings Operations
                                TABLE OF CONTENTS

MESSAGE FROM THE ACTING INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . 1
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


DEPARTMENT OF STATE
  OFFICE OF AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11
  OFFICE OF INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19
  OFFICE OF INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
  APPENDIX 1: INVESTIGATIVE ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
  APPENDIX 2: REPORTS ISSUED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
  APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES . . . . . . 40
  APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS . . . . 43
  APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS . . . . . . . . . . . . . . . . . 59
  APPENDIX 6: PEER REVIEW ACTIVITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 60


BROADCASTING BOARD OF GOVERNORS
  OFFICE OF AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63
  OFFICE OF INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 64
  APPENDIX 1: INVESTIGATIVE ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 66
  APPENDIX 2: REPORTS ISSUED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67
  APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES . . . . . . 68
  APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS . . . . 69


ABBREVIATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 70




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013                             ii
MESSAGE FROM THE ACTING
INSPECTOR GENERAL

                             I am pleased to present to Congress the Office of Inspector
                             General (OIG) Semiannual Report for the Department
                             of State (Department) and the Broadcasting Board of
                             Governors (BBG). This report covers the period ending
                             September 30, 2013, as required by the Inspector General
                             Act of 1978, as amended.
                          During this reporting period, OIG has emphasized security
                          of U.S. diplomatic missions overseas, and has also looked
                          to improve the integrity of the entire procurement and
     Harold W. Geisel     grant processes. Addressing security vulnerabilities is a top
                          priority for the Department and OIG. The OIG Offices of
Audits and Inspections have examined physical, procedural, communications, staff-
ing, technical, and construction aspects of security. We have also devoted consider-
able resources to information systems security where shortcomings can potentially
have disastrous consequences. OIG emphasized the importance of current certifica-
tion, accreditation, and monitoring to prevent network crashes, unauthorized access,
and other forms of hacking.
During this period, OIG issued its Special Review of the Accountability Review Board
[ARB] Process. OIG determined that the ARB process operated as intended—
independently and without bias—to identify vulnerabilities in the Department’s
security programs; however, the Department lacked a conceptual framework or
risk management process to determine if the strategic value of a program outweighed
associated risks. OIG also determined that implementation of ARB recommendations
required sustained oversight by Department principals to ensure long-term security
program improvements and to avoid reissuing recommendations for vulnerabilities
identified in previous ARBs. The Department was making progress implementing the
Benghazi ARB recommendations, but action on many of them remained to be fully
institutionalized. OIG made recommendations to address key Benghazi ARB recom-
mendations and deficiencies in the ARB process.
OIG was also active during this period in overseeing Department and BBG contract-
ing and grant activity. Our work in this area is not only important for the money we
recover or save; the integrity and good name of the U.S. Government are at risk when
agencies do not effectively spend the taxpayers’ funds. OIG investigations, audits,
and inspections staffs all found weaknesses, and made recommendations covering
all aspects of procurement, contracting, and the award of grants. OIG repeatedly


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   1
    identified the single biggest weakness as a lack of sufficient and adequately trained
    oversight personnel. Contracting and grants officer representatives, particularly those
    located in conflict areas, were often overwhelmed with work—so much that they
    could do little more than provide a “rubber stamp” approval of payment requests.
    OIG did find that the Department has made some progress in training and testing
    employees involved with this work. However, our auditors found they could not
    verify many actions because files were incomplete or were even missing.
    This Semiannual Report will be the last one signed by me. Steve A. Linick took
    charge of the OIG on September 30, 2013. My service here and and my work with
    the dedicated public servants in OIG have been the highlight of my 43 years in the
    U.S. Government and I hope and expect that one day, Steve Linick will say the same.




                                                Harold W. Geisel
                                                Acting Inspector General




2   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
EXECUTIVE SUMMARY

The auditors, inspectors, investigators, and other professionals in OIG promote effec-
tive management, accountability, and positive change in the Department, BBG, and
the foreign affairs community. During this reporting period, OIG issued 57 reports
with recommendations to improve Department and BBG programs, and operations,
and identified more than $362 million in cost efficiencies, including funds to be
put to better use, questioned costs, fines, and recoveries. A full list of reports issued
during this period can be found in Appendix 2 of each agency section of this report.
This Semiannual Report to the Congress summarizes work carried out by OIG
during the period April 1 through September 30, 2013. OIG addresses classified
issues in the Classified Annex to the Semiannual Report to the Congress.



OFFICE OF AUDITS
In a December 18, 2012, letter to the Chairman of the Committee on Foreign
Relations, then Secretary of State Hillary Rodham Clinton sent a copy of the
Department’s December 2012 Accountability Review Board report on the September
2012 attacks on various compounds in Benghazi, Libya. In that letter, the Secretary
cited the “serious, systemic challenges” identified in the report and presented actions
that were being taken and would continue to be taken to implement the recommen-
dations contained in the report. Specifically, the Secretary stated that she had ordered
“a worldwide review” of the Department’s “overall security posture, with particular
scrutiny for high-threat posts” and further stated that the Department would “have
to take a harder look” at “how we support our diplomats and development experts in
places where national security forces are fragmented and political will may be weak.”
In alignment with the Secretary’s review of the Department’s overall security posture,
the Office of Audits issued several reports during this semiannual period on the
subject. In one report, OIG determined to what extent new embassy compounds and
consulate compounds at five high-threat level posts complied with current physical
and procedural security standards, finding that posts were not always in compliance
with current standards. In another report, OIG determined to what extent seven
posts under the purview of the Bureau of African Affairs (AF) had complied with
current physical security standards.
 OIG also issued a report on a program designed to assist the Afghan Government
in building a prison system that “meets international standards and Afghan cultural
requirements.” OIG determined that the Department was not effectively managing
the program and had not met congressional requirements to ensure that the Afghans
could sustain the prison system once international contributions to the program


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   3
    were reduced. OIG recommended that the Department immediately evaluate the
    effectiveness and sustainability of the program and take action as necessary based on
    that evaluation, to include determining whether the program is viable and should be
    continued.



    OFFICE OF INSPECTIONS
    OIG issued reports on inspections of 8 domestic bureaus/entities and 11 overseas
    missions, 11 classified annexes, 3 compliance followup reviews, and 4 special
    reviews. Recommendations in these reports could potentially result in monetary
    benefits or funds to be put to better use of approximately $187 million. The Office
    of Inspections also continued to document the Department’s innovative practices,
    which are used to improve its efficiency and effectiveness.
    OIG conducted four special reviews during the reporting period, including a special
    review of the Accountability Review Process Board to evaluate the Department’s
    compliance followup process and its progress implementing recommendations from the
    Benghazi Accountability Review Board. OIG determined that the process operated as
    intended but lacked sustained oversight by Department principals. OIG conducted a
    review of the Department’s Ethics Program in response to a report from the Office of
    Government Ethics, which concluded that the Department had an extremely limited
    capacity to respond to the increased demands on its ethics program during post-election
    periods. OIG found that the Office of Ethics and Financial Disclosure had made a
    number of improvements to the ethics program but needed to address shortcomings in
    training and to better identify and track financial disclosure filers. OIG also reviewed the
    Department’s process for establishing language designated positions and made recom-
    mendations to improve oversight of the program. The Department spent approximately
    $195 million in language training in FY 2012 and $11.4 million in language incentive pay
    in 2012. OIG’s review of 21 overseas missions’ compliance with the William Wilberforce
    Trafficking Victims Protection Reauthorization Act found that the missions were properly
    implementing Wilberforce protections regarding visa processing.
    During the reporting period, OIG identified lack of sufficient oversight and monitoring
    of contracts and programs as a significant deficiency facing many inspected entities.
    Mission Iraq faced daunting challenges in monitoring and overseeing several programs
    and projects. These challenges included completion of construction projects valued at
    approximately $500 million, many plagued by delays and disagreements between the
    embassy and Washington; U.S. assistance to Iraq ($572 million planned for FY 2014);
    Department-funded grants assistance ($70 million planned in FY 2014); and the transi-
    tion from huge legacy Department of Defense contracts to Department contracts. OIG
    recommended that the embassy develop and implement a plan to oversee the more than
    $5 billion in contracts and recommended urgent Department action to recruit and train
    qualified personnel to oversee those contracts. OIG found that the Bureau of Information


4   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
Resource Management, Office of Information Assurance, lacked adequate management
controls and procedures to monitor its contracts, task orders, and blanket purchase agree-
ments, which had an approximate value of $79 million. OIG made recommendations to
assign qualified personnel to monitor contracts and to maintain and track contract files.
The growth in Border Security Program funding from approximately $700 million in FY
2005 to $2.5 billion in FY 2012 constituted new challenges for the Bureau of Consular
Affairs, Office of the Comptroller, including the lack of a program manager. OIG recom-
mended that the bureau establish a program manager to oversee this large and complex
program. OIG also made recommendations in several reports to address lack of adequate
oversight and monitoring of contracts, grants, and programs in other offices.
OIG identified several opportunities for the Department to realize monetary benefits.
Regional Service Center (RSC) Frankfurt was providing administrative support visits
throughout Europe that were no longer essential. Termination of these visits could result
in savings of $1.25 million in U.S. direct-hire and locally employed staff salaries and
an estimated $230,000 annually in airfare and per diem costs. The Bureau of Overseas
Buildings Operations and Embassy Kyiv were considering reconverting the former
Marine House into a new residence for the deputy chief of mission. The project would
cost approximately $2.5 million. OIG recommended a cost-benefit analysis to determine
whether the former Marine House should be converted into multiple apartment units
instead, a move that could yield cost savings of $200,000 to $300,000 annually. OIG
also determined that Embassy Moscow could save $2.7 million annually by leasing or
selling units at a remote compound and better managing its inventory of leased prop-
erties. During the inspection of Embassy Rabat, OIG determined that construction
of a new consulate compound in Casablanca would not be a cost-effective or efficient
use of financial and human resources. In addition, OIG found no compelling policy or
programmatic reasons to keep Consulate General Casablanca open and determined that
closing it could also eliminate five U.S. direct-hire positions for a savings of more than
$2.5 million annually. Offsetting the savings of closing Casablanca, however, would be
the cost to construct a new consular annex in Rabat, which would have to be on prop-
erty adjacent to the new embassy compound. OIG also identified a direct-hire position
that could be performed by either an eligible family member or a locally employed staff
member, thereby putting to better use $570,000 in funding.



OFFICE OF INVESTIGATIONS
During this reporting period, OIG conducted numerous investigations involving
procurement fraud, which continues to be INV’s primary investigative focus. One
investigation involved allegations of improper activities being committed by a major
contractor that provides services to the Department and other agencies. OIG took
the lead on a multi-agency investigation, which resulted in the contractor agreeing to
a $10.5 million civil settlement for improperly inflating Department and U.S. Mint



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   5
    contract prices and engaging in prohibited employment negotiations with a Federal
    Emergency Management Agency official.
    OIG conducted a joint INV investigation with the Internal Revenue Service following
    a hotline complaint and media reports that a Department contract specialist steered
    more than $39 million in contracts to a company she and her husband controlled.
    The investigation confirmed the allegations and both the contract specialist and her
    husband pleaded guilty to major fraud against the United States, conspiracy to commit
    illegal monetary transactions, and illegal monetary transactions. They also agreed to a
    criminal forfeiture judgment in the amount of $7.9 million.
    Another investigation conducted with the OIG for the U.S. Agency for International
    Development, involved allegations that two foreign real estate companies paid bribes
    to two locally employed staff members at the U.S. Embassy in order secure U.S.
    Embassy lease agreements. During the investigation, two company presidents admit-
    ted to paying the bribes and both employees were terminated from employment at
    the Embassy. The Office of the Procurement Executive issued six contracting debar-
    ments for a period of three years in connection with this investigation, two for the
    former employees, two for the companies, and two for the company presidents.



    INTERNATIONAL BROADCASTING
    During this reporting period, OIG conducted six inspections of Broadcasting Board
    of Governors (BBG) operations overseas; four were issued as separate reports and
    BBG operations in Juba and Minsk were reported in the respective embassy inspec-
    tion reports. Despite significant personnel reductions, program cuts, and government
    restrictions on free media, OIG found that the inspected BBG entities were generally
    successful in implementing a number of goals of the BBG Strategic Plan 2012-2016,
    including Impact through Innovation and Spur Development through Targeted Media
    Initiatives and Training. In Iraq, Radio Free Iraq trained Iraqi journalists in multimedia
    reporting; Alhurra TV trained and provided internships for journalism students; and
    the Middle East Broadcast Network trained women who were political candidates
    in Erbil. Radio Free Europe/Radio Liberty in Kyiv had incorporated social media
    interaction with its radio broadcasts and initiated an intern program that was compli-
    mented by the Ukrainian Government. Amidst increased government censorship and
    encroachments on press freedom in several countries, the Latin American Division’s
    Spanish Service had expanded its audience to 26.7 million in Latin America’s sophis-
    ticated and competitive media market, and the Creole Service remained the most used
    international news organization in Haiti, reaching one-quarter of the Haitian popula-
    tion. In Russia’s increasingly hostile environment for foreign broadcasters, the Voice of
    America (VOA) Russian Service had shifted focus and resources to digital platforms,
    and the International Broadcasting Bureau, Office of Strategy and Development, had
    creatively pioneered affiliate relationships to expand VOA Russian Service reach to


6   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
Russian audiences. The Radio Free Europe/Radio Liberty Russian Service adopted
the same approach; however, the strategy was costly and significantly flawed. Radio
Free Europe/Radio Liberty management, International Broadcasting Bureau staff,
and the Broadcasting Board of Governors all bore responsibility for the missteps. OIG
recommended that the inspected BBG operations implement strategies to enhance
collaboration, budget, staffing, and international broadcasting. Radio Free Europe/
Radio Liberty Belarusian Service had carried out a research-driven review of transmission
effectiveness, which led to the elimination of 4 hours of repeat shortwave and mediumwave
radio. The service was also maximizing distribution of news coverage by encouraging
viewers of its social media sites to rebroadcast stories—one report was reposted to more
than 17,000 sites. In Juba, BBG installed a radio transmitter on the embassy residential
compound grounds to broadcast VOA programs in English to an estimated population of
400,000 in the greater Juba area.



CONGRESSIONAL TESTIMONY AND BRIEFINGS
Section 4(a) of the Inspector General Act of 1978, as amended, requires the inspector
general “to review existing and proposed legislation and regulations relating to the
programs and operations of [the Department and BBG]” and to make recommenda-
tions “concerning the impact of such legislation or regulations on the economy and
efficiency in the administration of programs and operations administered or financed
by the Department and BBG or the prevention and detection of fraud and abuse in
such programs and operations.” OIG provides information to Congress by participat-
ing in congressional hearings and briefings.
On April 10, 2013, Deputy Inspector General Harold Geisel testified before the
Committee on Oversight and Government Reform of the House of Representatives.
The title of the hearing was “U.S. Foreign Assistance: What Oversight Mechanisms Are
in Place to Ensure Accountability?” The Deputy Inspector General focused his remarks
on oversight of ongoing programs in Afghanistan, including several counternarcotics
programs; the Department’s Migration and Refugee Assistance program; and several
nonproliferation, antiterrorism, and demining programs. DIG Geisel testified on a panel
with the Special Inspector General for Afghanistan Reconstruction and representatives
of the Offices of Inspector General for the Department of Defense, the U.S. Agency for
International Development, and the Special Inspector General for Iraq Reconstruction.
During the reporting period, representatives of OIG met with congressional staff
members on several occasions. Topics of discussion during those meetings included
current OIG oversight planning; an inspection of the Bureau of International
Information Programs; an audit of the Department’s compliance with physical and
procedural security standards at selected high-threat level posts; and an inspection of
the Bureau of Information Resource Management’s Office of Information Assurance.



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   7
8   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
DEPARTMENT
     OF
   STATE
OFFICE OF AUDITS

CONTRACTS AND GRANTS

Audit of Grant Closeout Processes for Selected Department of State Bureaus
(AUD-CG-13-31)
The closeout procedure is the critical final step in a grant award life cycle and is an
essential part of the grants oversight process. When closeout is performed in a timely
manner, the Department’s overall Federal assistance management is affected posi-
tively. OIG analyzed grants data from the Payment Management System (PMS) as
of March 1, 2012, for three bureaus that collectively accounted for approximately
$67.4 million (82 percent) of the $81.9 million of the Department’s unspent funds.
The three bureaus also were responsible for 1,155 (81 percent) of the Department’s
additional 1,421 expired grants with zero balances.
OIG found that the Department had taken action to update and reinforce grant close-
out policies and procedures and to close some expired grants in PMS, but continued
prioritization of the closeout of expired grant accounts could allow the bureaus to iden-
tify and redirect unused funds to other projects and priorities. Also, grants management
personnel had not always adequately maintained official grant files, and documents
required for grant closeout were often missing, incomplete, or inaccurate, all of which
negatively affected the Department’s ability to properly close out grants.
OIG recommended that the three bureaus continue to work to close the expired
grants that had unspent balances in the Global Financial Management System
of approximately $9.4 million, close the remaining 1,139 zero-balance grants in
PMS, and review and close additional expired grants totaling approximately
$40.5 million in unspent funds as part of this effort. OIG’s efforts in this audit
will allow the Department to potentially realize $9.4 million as funds to be put
to better use. OIG recommended that the bureaus improve their management of
grants, to include developing performance metrics for bureau grants management
personnel, which will provide for grants to be closed out in a timely manner. OIG
also recommended that the bureaus develop procedures to periodically review
respective official grant files to determine compliance with Department policies.

Audit of Bureau of Population, Refugees and Migration Oversight of Selected
Cooperative Agreements in Support of Colombian Refugees in Ecuador
(AUD-CG-13-35)
OIG conducted the audit to assess whether the Bureau of Population, Refugees and
Migration (PRM) oversight of cooperative agreements in support of Colombian refugees

OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   11
     located in Ecuador was in accordance with applicable guidelines, and whether stated
     program performance indicators were achieved and accurately reported. OIG found
     that PRM’s performance monitoring of the agreements sampled was in accordance with
     applicable guidelines and that stated performance indicators were achieved and accu-
     rately reported. OIG also noted two performance oversight practices that exceeded the
     Department’s requirements for monitoring cooperative agreements: completing an interim
     program evaluation for every cooperative agreement, and dedicating two full-time policy
     staff positions to provide monitoring and evaluation expertise to all PRM program officers.
     Regarding financial monitoring, OIG determined that PRM needed to strengthen
     monitoring procedures to validate that funding was properly spent by recipients.
     Without financial reviews of refugee assistance funds, PRM was not in compliance
     with Department directives and did not have reasonable assurance that program
     expenditures were in accordance with the terms of the cooperative agreements.
     OIG made recommendations for PRM to strengthen its procedures for financial
     review of award recipients’ documentation of cooperative agreements and for PRM
     to ensure that two award recipients reimburse the Department for unallowable costs
     identified during the audit.

     Audit of Norwegian People’s Aid Under Department of State and U.S.
     Agency for International Development Multiple Agreements for Year Ended
     December 31, 2010 (AUD/CG-13-42)
     The Department’s Bureau of Political-Military Affairs, Office of Weapons Removal
     and Abatement, awarded the Norwegian People’s Aid, a nongovernmental organization,
     11 grants, totaling $10,276,970, under which the grantee incurred expenditures during
     the year ended December 31, 2010. The main purposes of the grants included removing
     land mines; developing programs that allowed free movement and settlement of popu-
     lations; and improving physical infrastructure and access, such as roads, bridges, and
     schools, to promote increased movement and exchange of goods among communities.
     An independent public accountant audited Department and U.S. Agency for International
     Development (USAID) grants to Norwegian People’s Aid. In its report, the independent
     accountant questioned costs and identified internal control weaknesses and instances of
     noncompliance with the terms of the grant agreement and applicable laws and regula-
     tions that required the grantee’s corrective action. The internal control weaknesses for
     the Department’s grants were similar to those reported for the USAID grants. USAID
     contacted the Norwegian People’s Aid and requested action to correct the control
     deficiencies. OIG requested that the Department make a determination on the allowability
     of questioned costs applicable to Department awards in the amount of $20,283.




12   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
FINANCIAL MANAGEMENT

Audit of Department of State Application of the Procurement Fee To Accomplish
Key Goals of Procurement Services (AUD-FM-13-29)
Contractors and grantees play a significant role in supporting Department opera-
tions, and the Bureau of Administration, Office of Logistics Management, Office of
Acquisitions Management (A/LM/AQM), directs Department acquisition programs.
Until FY 2008, A/LM/AQM was funded through annual appropriations. However,
because of a significant increase in the number and amount of procurement
transactions, A/LM/AQM became a fee-for-service provider through the Working
Capital Fund (WCF). The overall objective of this audit was to determine whether
A/LM/AQM had applied procurement fee collections to implement key procurement
activity goals included in its Business Plan.
OIG found that A/LM/AQM had used the procurement fees it collected as part of
the WCF toward implementing key procurement activity goals in its Business Plan.
However, A/LM/AQM had not sufficiently addressed the Financial Analysis and
Reporting initiative related to the performance measurement goal; the Customer
and Stakeholder Interaction and Organizational Capacity Building initiatives related
to the customer service goal; or the Human Resources Development, Internal
Reviews, and Business Process Mapping and Procedures Standardization initiatives
related to the continuous improvement goal. A/LM/AQM had sufficiently addressed
the Implementing Service Level Agreements initiative related to the performance
measurement goal. Overall, A/LM/AQM did not have a process in place to track the
accomplishment of the goals in the Business Plan.
OIG made recommendations for the Department to improve A/LM/AQM’s finan-
cial analysis and reporting, customer service, human resources development, inter-
nal reviews, business processes, and the tracking of the accomplishment of goals.

Audit of Selected Working Capital Fund Cost Center Financial Results
(AUD-FM-13-36)
The Department operates and maintains a WCF, which finances its operations through
the collection of fees from its customers. OIG contracted with an independent exter-
nal auditor to determine whether the fees collected by two of the Department’s WCF
cost centers, Secure Warehouses (SW) cost center and Information Technology (IT)
cost center, were sufficient to cover all costs required to sustain operations for those
activities. The independent external auditor found that SW cost center expenses
exceeded revenue by $8.8 million in total from FY 2005 through FY 2012 because
the Department considered the gains and losses of the SW cost center and the
Freight Forwarding Service Center (another WCF cost center) to offset each other.
Also, the SW cost center had delayed fee increases, had not formally reassessed its
fees since FY 2005, had paid approximately $9.5 million of expenses from FY 2005


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   13
     through FY 2012 that were not appropriate cost center expenses, and did not fully
     bill its customers for extended storage services. In addition, the SW cost center paid
     expenses of approximately $4.1 million in FY 2012 from appropriated funds or other
     WCF cost center revenue. As a result, the SW cost center did not have a clear under-
     standing of its actual financial position and could not determine the amount of fees
     that would be sufficient to sustain its operations. Other agencies that used the SW
     cost center’s services had been undercharged as much as $2.6 million from FY 2005
     to FY 2012, an amount that could have been put to better use.
     Also, IT cost center revenue exceeded expenses by approximately $26 million in total
     from the IT cost center’s inception in FY 2009 through FY 2012. The cost center paid
     operating costs of approximately $2.8 million in FY 2012 from non-IT cost center
     funds, the IT cost center received $1.5 million in appropriated funds, and the IT cost
     center’s fee-setting methodology did not consider the retained funds or future changes
     to customer needs. In addition, the IT cost center did not have an effective method to
     determine the number of its customers’ desktop computers, and it provided services to
     nonserviced bureaus and offices that were not billed for the services. As a result, the IT
     cost center did not have a true understanding of its actual financial position and could
     not establish fees in a manner that covered but did not greatly exceed its cost of opera-
     tions. The independent auditor estimated that the IT cost center charged its customers
     as much as $350 more per desktop computer than was necessary. The $2.8 million
     paid using non-IT cost center funds could have been put to better use, and the IT cost
     center may not have charged its customers correctly for the number of desktop comput-
     ers serviced and may have paid more or less than the amount warranted to the contrac-
     tor that was operating the IT Help Desk.
     OIG made recommendations for the Department to improve the fee-setting and
     calculation methodologies of the two cost centers and for the cost centers to identify
     and properly charge their operating expenses.

     HUMAN CAPITAL AND INFRASTRUCTURE

     Outline for Action: Physical Security Concerns at Embassy N’Djamena
     (AUD-HCI-13-27)
     As part of an overall audit of the Department’s compliance with physical security
     standards and measures at selected posts within AF, OIG conducted a physical secu-
     rity survey at Embassy N’Djamena, Chad, to determine the embassy’s compliance
     with current standards. OIG identified physical security deficiencies that required
     the embassy’s immediate attention and made recommendations for the embassy to
     enhance its security posture.




14   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
Outline for Action: Physical Security Concerns at Embassy Monrovia, Liberia
(AUD-HCI-13-28)
As part of an overall audit of the Department’s compliance with physical security
standards and measures at selected posts within AF, OIG conducted a physical
security survey at Embassy Monrovia, Liberia, to determine the embassy’s compliance
with current standards. OIG identified physical security deficiencies that required
the embassy’s immediate attention and made recommendations for the embassy to
enhance its security posture.

Outline for Action: Physical Security Concerns at Embassy Nouakchott,
Mauritania (AUD-HCI-13-30)
As part of an overall audit of the Department’s compliance with physical security
standards and measures at selected posts within AF, OIG conducted a physical
security survey at Embassy Nouakchott, Mauritania, to determine the embassy’s
compliance with current standards. OIG identified physical security deficiencies
that required the embassy’s immediate attention and made recommendations for the
embassy to enhance its security posture.

Outline for Action: Physical Security Concerns at Embassy Dakar, Senegal
(AUD-HCI-13-34)
As part of an overall audit of the Department’s compliance with physical security
standards and measures at selected posts within AF, OIG conducted a physical
security survey at Embassy Dakar, Senegal, to determine the embassy’s compliance
with current standards. OIG identified physical security deficiencies that required
the embassy’s immediate attention and made recommendations for the embassy to
enhance its security posture.

Audit of Department of State Compliance With Physical Security Standards at
Selected Posts Within the Bureau of African Affairs (AUD-HCI-13-40)
The report presented audit findings for seven posts under the purview of AF that
had threat levels ranging from medium to critical. The objective of the audit was
to determine to what extent the selected embassies in Africa complied with current
physical security standards, and whether management officials at these posts used
available authorities to effectively implement the posts’ security programs.

Outline for Action: Local Guard Contractor Did Not Comply With Contract
Terms Regarding Supplemental Wage Allowance (AUD-HCI-13-41)
The local guard contractor for Embassy Lilongwe, Malawi, was required to pay local
guards $100 per month supplemental pay in addition to the guards’ regular wages



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   15
     and benefits, based on a provision in the contract. Not paying the supplemental wage
     allowance constitutes a material breach of the contract and warrants termination of
     the contract for default. OIG found that the local guard contractor had not paid the
     monthly $100 supplemental wage allowance to the local guards, as required by the
     contract. Although the contractor invoiced $43,800 in supplemental wage allowance
     for the months reviewed, the corresponding monthly pay statements for each guard
     did not reflect that the $100 had been paid.
     The supplemental wage allowance was not paid because the embassy Regional
     Security Officer (RSO), who also served as the contracting officer’s representative
     on the contract, was not sufficiently familiar with the contract terms to verify that
     the $100 supplemental wage allowance had been paid as required by the contract.
     Also, the contracting officer had not adequately informed the RSO about validation
     procedures that would have helped ensure compliance with the supplemental wage
     allowance provision.
     OIG estimated that the amount invoiced by the contractor and not paid to the local
     guards as of June 2013 could be as much as $1,489,200. To ensure that local guards
     perform services in a manner that enhances post security and to avoid unnecessary
     guard attrition, it is important for contractors to adhere to wage terms for local guard
     contracts and for the guards to be properly compensated.
     OIG made recommendations for the Department to determine the full extent to
     which the contractor had complied with the contract’s supplemental wage allowance
     provision and to instruct applicable contracting officer’s representatives to verify that
     the contractor pays the supplemental wage allowance to local guards.

     INFORMATION TECHNOLOGY

     Audit of International Boundary and Water Commission, United States and
     Mexico, U.S. Section, Information Security Program (AUD-IT-13-39)
     In response to the Federal Information Security Management Act of 2002 (FISMA),
     OIG conducted an audit of the United States Section, International Boundary and
     Water Commission’s (IBWC) Information Security Program to evaluate IBWC’s
     progress in addressing FISMA information management and information security
     program requirements.
     Overall, IBWC had continued its efforts to further develop its information security
     program. However, OIG made recommendations for IBWC to address control weak-
     nesses in the system inventory, risk management program, configuration management,
     security training, plan of action and milestones, remote access, continuous monitoring,
     contingency planning, oversight of contractor system, personnel security, and physical
     and environmental protection.



16   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
MIDDLE EAST REGION OPERATIONS

Audit of the U.S. Mission Iraq Staffing Process (AUD-MERO-13-33)
In February 2012, the Office of the Deputy Secretary of State for Management
and Resources announced an effort to “normalize” the U.S. presence in Iraq that
would reduce a reported level of 16,298 personnel in January 2012 to a planned
6,320 personnel by January 2014. OIG assessed the process the Department used to
establish staffing requirements for its diplomatic presence in Iraq and to determine
whether mission infrastructure requirements aligned with the staffing plans.
OIG found that the Department and Embassy Baghdad did not conduct a systematic
analysis that linked staffing with U.S. foreign policy priorities for Iraq. As a result, the
Department could not support that the planned staff size of 6,320 personnel would
provide the proper number or skill mix of personnel needed to meet the priorities while
minimizing security risk and optimizing costs. Also, there was no plan linking Iraq
staffing to mission facilities requirements. Although the Bureau of Overseas Buildings
Operations (OBO) developed the Baghdad Master Plan prior to the 2011 transition
from a military-led mission to a civilian-led mission in Iraq, that plan became obsolete
during 2012 as the United States reduced its diplomatic presence in the country.
Completing a staffing analysis would provide the Department and Embassy Baghdad
with an objective basis for determining the number and skill mix of personnel needed
to achieve the priorities and for balancing achievement of those priorities with the
security risks and operating costs associated with placing staff in Iraq. It would also
help determine whether existing facilities are sufficient to meet mission needs. OIG
recommended that Embassy Baghdad formally communicate Iraq policy priorities to
all mission elements and conduct a systematic analysis of staffing requirements based
on the policy priorities specific to U.S. Mission Iraq and that OBO, in coordination
with Embassy Baghdad, develop a strategic facilities plan for construction and opera-
tions and maintenance activities that reflects mission staffing requirements.

Audit of the Bureau of International Narcotics and Law Enforcement Affairs
Corrections System Support Program in Afghanistan (AUD-MERO-13-37)
On November 28, 2012, the Deputy Secretary for Management and Resources
certified to Congress that FY 2012 Bureau of International Narcotics and Law
Enforcement Affairs (INL) funds would not be obligated unless INL programs
met the requirements of the USAID sustainability guidance. On March 13, 2013,
INL began obligating FY 2012 funds for the Corrections System Support Program
(CSSP), which was established to assist the Government of the Islamic Republic of
Afghanistan in building a safe, secure, and humane prison system that met interna-
tional standards and Afghan cultural requirements. OIG found that INL did not
fully meet the USAID sustainability requirements before obligating the funds.



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   17
     INL had conducted a review of “corrections system development” in early 2012 that
     included, but was not limited to, CSSP. However, that review did not fulfill the
     requirements of the USAID sustainability guidance, which calls for immediate and
     ongoing program reviews to determine whether a program is meeting the core prin-
     ciples of the guidance. These principles include evaluating the effectiveness of CSSP,
     identifying costs for the Afghan government to sustain CSSP, and evaluating the
     Afghan government’s progress in meeting its commitments. As a result, INL had no
     basis for determining whether CSSP was an effective program with a positive return
     on its $226 million investment; whether the program should be revised, reduced,
     or canceled; or whether the Afghans will have the capacity to sustain the correc-
     tions system once international contributions are reduced. At FY 2012 and FY 2013
     Afghan Government funding levels, CSSP will not be sustainable without continued
     international support.
     OIG made recommendations for INL to evaluate CSSP for effectiveness and sustain-
     ability, including associated costs by the Afghan government, and to take actions
     needed based on the results of the evaluation. OIG also recommended that the
     Department revise and reissue its program management and evaluation guidance to
     ensure that programs such as CSSP are effectively managed and are sustainable.

     SECURITY AND INTELLIGENCE

     Audit of Department of State Compliance With Physical/Procedural Security
     Standards at Selected High Threat Level Posts (AUD-SI-13-32)
     OIG audited Department compliance with physical and procedural security standards
     at selected high threat level posts to determine to what extent five new embassy
     and consulate compounds complied with current physical and procedural security
     standards. OIG also determined the degree to which post management officials used
     available authorities to effectively implement the post security program. OIG found
     that posts were not always in compliance with current physical security standards and
     made recommendations for the Department to address the deficiencies identified.




18   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
OFFICE OF INSPECTIONS

DOMESTIC INSPECTIONS

Inspection of the Bureau of International Information Programs (ISP-I-13-28)
Bureau of International Information Programs leadership failed to convey its stra-
tegic vision to staff members and created an atmosphere of secrecy, suspicion, and
uncertainty. A 2011 reorganization of the bureau did not resolve structural prob-
lems and caused new organizational difficulties. The bureau had used technology
effectively and made a significant contribution to the Department’s digital diplomacy
outreach effort, increased the reach of its publications, and expanded the use of video
in public diplomacy work. Regularizing support for American Spaces overseas has
strengthened these platforms for engagement with foreign publics, a cornerstone of
the Department’s 21st century public diplomacy effort. However, the bureau’s digi-
tal outreach needed to focus more on broad public diplomacy goals rather than raw
numbers of social media “fans.” In addition, OIG noted limited outreach by top
leadership to counterparts in the Department or at sister foreign affairs agencies.
Contract management was weak, constituting a potential vulnerability for the
Department. The Office of Audience Research and Evaluation produced little
work and was not engaged with either the bureau or other elements of the
Department. Responsibility for information technology operations was diffuse,
leading to problems of governance and oversight, and the executive office was
not providing effective service. OIG made recommendations to address these
issues.

Inspection of the Bureau of Consular Affairs, Office of the Executive Director
(ISP-I-13-35)
The scope and complexity of resource management in the Bureau of Consular Affairs
(CA) required a senior official at the deputy assistant secretary level with authority
over the Office of the Executive Director, Office of the Comptroller, and Office of
Computer Systems and Technology. Supervisory responsibilities for the Post Analysis
and Support Division also needed to be reorganized to reflect the increased number
of division employees and the complexity of new initiatives.
The bureau’s leaders had not defined respective roles clearly for the Office of the
Executive Director and the Office of the Comptroller on contract matters, particu-
larly for the Global Support Strategy contract.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   19
     Inspection of the Bureau of Consular Affairs, Office of the Comptroller
     (ISP-I-13-36)
     The Office of the Comptroller has been plagued by insufficient and unevenly trained
     staff and an uncertain mission. Some of the roles and responsibilities of the Office of
     the Comptroller, particularly those regarding contracting oversight and management
     controls policy, were not sufficiently clear to stakeholders and employees. The more
     than $2.5-billion Border Security Program did not have a designated program manager,
     which diffused responsibility for program oversight and administration. The office’s
     recovery efforts were underway. OIG made recommendations to address these issues.

     Inspection of the Florida Regional Center, Fort Lauderdale, United States
     (ISP-I-13-33)
     The Florida Regional Center (FRC) in Fort Lauderdale provided quality training
     services for the Bureau of Western Hemisphere Affairs and continued to expand
     these services by training and certifying locally employed staff throughout the Western
     Hemisphere as adjunct faculty who can teach courses to their colleagues. The FRC also
     provided financial management and human resources assistance to 18 posts in the
     Bureau of Western Hemisphere Affairs. However, service memoranda of understand-
     ing with the posts lacked quantifiable outcomes and monitoring of internal controls
     and thus did not allow effective evaluation of the FRC’s performance in these areas.
     The FRC’s management units were overstaffed. OIG recommended savings through
     consolidating functions and improving oversight. In addition, the FRC’s regional
     job classification service needed to be evaluated to determine its value to the embas-
     sies and consulates in the region and, if beneficial, to expand it. The FRC’s physical
     security program did not meet acceptable standards due to lack of oversight by the
     Bureau of Diplomatic Security and insufficient training for the principal post security
     officer. OIG recommended that the FRC and the bureau coordinate to review security
     programs and procedures and to provide training for FRC security staff.

     Inspection of the Bureau of Information Resource Management, Office of
     Information Assurance (ISP-I-13-38)
     The Bureau of Information Resource Management, Office of Information Assurance
     (IRM/IA), was established to address information security requirements in Title
     III of the e-Government Act of 2002, but the office was not fulfilling all of those
     requirements, the majority of which were performed by other Department offices. In
     addition, IRM/IA’s workload did not support its organizational structure, resources,
     or status as an IRM directorate. The office’s mishandling of the certification and
     accreditation process and contracts had contributed to expired authorizations to oper-
     ate for 52 of the Department’s 309 systems. IRM/IA also lacked adequate manage-
     ment controls and procedures to monitor its $79 million in contracts, task orders,
     and blanket purchase agreements.


20   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
OIG recommended an organizational assessment of IRM/IA, including a workforce and
workload balance analysis and a review of similar functions that are being performed by
other offices in the Department. OIG also made recommendations to improve the certifi-
cation and accreditation process and the office’s administration of contracts.

Inspection of the Bureau of East Asian and Pacific Affairs (ISP-I-13-39)
The Bureau of East Asian and Pacific Affairs (EAP) was well led and high-function-
ing but suffered from long-standing domestic staffing shortages. Over the past 4
years, as part of the Obama Administration’s policy rebalance toward the Asia-Pacific
region, EAP had spearheaded a broad, innovative, and well-received intensification
of U.S. foreign policy engagement. EAP had strengthened and modernized U.S.
alliances through increased strategic dialogues and engagements with treaty allies,
and was building constructive relationships with China and other partners. The
Lower Mekong Initiative had deepened partnerships, but EAP needed to take steps to
sustain its initial progress.
EAP produced good strategic planning documents, including collaborating with
USAID on the Joint Regional Strategy, but the bureau needed to better track and
assess implementation of its strategic plans. Working with the region’s multilat-
eral institutions and advancing regional economic interests were identified as key
policy priorities, but the bureau was not well organized or staffed for these priori-
ties. It needed to adjust overlapping senior management portfolios and address its
working-level staffing shortages. In addition, the Special Representative and Policy
Coordinator for Burma position was no longer needed because it duplicated the
efforts in Embassy Rangoon and a strengthened Burma desk. OIG made recommen-
dations to address these issues.

Inspection of the Office of the U.S. Global AIDS Coordinator (ISP-I-13-47)
The Office of the U.S Global AIDS Coordinator was overseeing a program whose
budget in 10 years had grown from $2.3 billion to $6.3 billion. Now operating in 44
countries from an original 15, the President’s Emergency Plan AIDS Relief has made
substantial inroads against HIV/AIDS, despite management shortcomings. OIG
recommended the office devote greater attention to internal management, includ-
ing personnel (where turnover is high), communication, information systems, and
contract oversight.

Compliance Followup Review of the Bureau of Educational and Cultural
Affairs (ISP-C-13-51)
Since the 2012 inspection, the Bureau of Educational and Cultural Affairs (ECA
has improved internal communications and developed a strategic planning process.
The absence of a standard process for data collection made it difficult to quantify
the relevancy of its foreign policy work. The bureau lacked a budget line item for

OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   21
     approximately $15 million in information technology expenditures, which hampered
     efforts at strategic planning and prioritizing functions and added to the challenge of
     project planning and contract management. The bureau had improved its oversight of
     the Summer Work Travel program, but needed to continue to build on its initial efforts.
     ECA had complied with most of the 78 formal and 34 informal recommendations
     from the February 2012 inspection by OIG. The compliance followup review reis-
     sued 12 formal recommendations from the 2012 inspection report and issued three
     new recommendations. Three informal recommendations were revised and reissued
     as formal recommendations



     OVERSEAS MISSIONS

     Bureau of African Affairs

     Inspection of Embassy Juba, South Sudan (ISP-I-13-29A)
     The Department had been unable to staff Embassy Juba adequately, prevent-
     ing the embassy from functioning as effectively as it should. Physical security was
     inadequate. Until the Department renovated or expanded the existing facility or
     constructed a new embassy compound, there would be no easy way to accommodate
     additional staff. A new embassy is scheduled for construction in 2018.
     One-year tours had weakened embassy reporting. The embassy needed to increase
     the quality and volume of its reporting by improving information sharing, hiring a
     protocol specialist, and adjusting political/economic section staffing. In addition, the
     consular section had insufficient staff and facilities, and Embassy Juba’s reliance on
     Embassy Khartoum for management support was not a viable strategy. OIG recom-
     mended that the Department provide additional consular support and establish an
     alternative management support system.
     Overlap of command and control between the Office of the U.S. Special Envoy
     for Sudan and South Sudan (S/USSESSS) and Embassy Juba regarding U.S. policy
     toward South Sudan had resulted in confusion over roles and occasional S/USSESSS
     guidance on bilateral issues that conflicted with the Ambassador’s priorities. OIG
     recommended that Embassy Juba, S/USSESSS, and the Bureau of African Affairs
     establish a U.S. Government multiyear strategy to guide policy and programmatic
     engagement with South Sudan.

     Inspection of Embassy Khartoum, Sudan (ISP-I-13-37A)
     The U.S. Government’s ability to engage with Sudan and pursue policy and program
     goals had been complicated by several sets of U.S. and United Nations sanctions that


22   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
restricted trade and investment; by International Criminal Court indictments of
President Al-Bashir and other key officials for crimes, including genocide in Darfur;
and an ordered departure of the majority of Embassy Khartoum’s American
employees following the September 14, 2012, attack on the compound. The
lack of officers with sufficient Arabic skills had also strained the embassy’s already
limited advocacy and outreach efforts. Despite the sharp reduction in direct-hire
staff, demands for embassy products and services continued, including reporting,
USAID activities, management support, and consular services. The mission has done
an excellent job with spot reporting while on ordered departure.
S/USSESS and Embassy Khartoum shared responsibility for U.S. policy toward
Sudan. Lack of clarity in the roles and responsibilities of the two entities had some-
times caused confusion. OIG recommended ways to increase information sharing
and coordination between the two entities. OIG recommended that the embassy
restart and revamp its post language program and that at least four positions be
designated with a higher level of Arabic proficiency.


Bureau of European and Eurasian Affairs

Inspection of the Regional Support Center Frankfurt, Germany (ISP-I-13-32)
The Bureau of European and Eurasian Affairs created the New Post Support Unit
in 1992 in Bonn, Germany, to provide administrative services to newly established
European embassies; the unit evolved into the RSC Frankfurt. The needs of the
serviced posts also changed over time, warranting review of the RSC’s mandate in
this context. RSC Frankfurt continued to provide administrative support visits to
embassies throughout Europe even though the missions were fully staffed and trained
and no longer required this support. With diminishing need for regional support,
RSC Frankfurt had successfully shifted focus to software development and testing
innovative management concepts for the Bureau of European and Eurasian Affairs.
The RSC also was performing well its function of classifying LE staff positions for
98 posts in Europe and the Middle East. RSC Frankfurt’s training support function
had also expanded to include locally employed (LE) staff from Europe, the Middle
East, and Africa.
OIG recommended that the Bureau of European and Eurasian Affairs discontinue
administrative support visits, thereby saving the U.S. Government $1.25 million in
U.S. and LE staff salaries and an estimated $230,000 per year in airfare and per diem
costs.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   23
      Effective Assignment of Regional Positions
      In 2013, OIG found a number of regional positions that the Department could
      eliminate or place in the United States or a more cost-effective location. Regional
      procurement agent salaries in Frankfurt are among the highest in the world;
      relocating those functions to a lower cost mission could save $1 million annually.
      Additionally, regional post assistance visits, performed out of Frankfurt, are no
      longer needed and could be discontinued, saving $1.47 million annually. OIG
      recommended reducing the 99 regional information management officer positions
      located overseas by 80 percent. These positions were created to provide immediate
      response services, but the majority of support they provide is routine and predict-
      able or could be provided remotely from the United States.

      While the creation of regional support positions often provides efficiencies, the decision
      to locate these positions in an overseas post or a domestic office must first answer the
      question: Must a function be performed overseas? Annual costs for overseas positions
      average $232,000 more per person than domestic positions; establishing a new overseas
      position costs $361,547 more than establishing a new position domestically. Placing
      positions at some overseas posts, such as Cairo, may also increase the security risk for
      employees and their families.


     Inspection of Embassy Vilnius, Lithuania (ISP-I-13-41A)
     The embassy compound did not meet Overseas Security Policy Board or fire and
     life safety standards. A multiphase construction project to upgrade the compound
     was under reaward because of the contractor’s termination for cause. Since 2009,
     Embassy Sofia had provided basic human resources services to Embassy Vilnius. OIG
     found the process convoluted and inefficient and recommended that these services be
     transferred back to Embassy Vilnius. Also questioned was whether Embassy Vilnius’
     American staff should continue to receive rest and recuperation travel benefits, which
     totaled $45,000 a year. OIG recommended that the embassy revise its hardship
     differential report to reflect current conditions and submit the report to the Bureau
     of Administration for review.
     The embassy’s five language-designated positions were at the working proficiency
     (3/3) level. However, limited use of Lithuanian did not justify the additional 14
     to 21 weeks of training at the Foreign Service Institute for students to achieve a
     3/3 level, versus a 2/2. OIG recommended that these positions be reclassified at
     the 2/2 level.




24   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
                 INNOVATIVE PRACTICE: Virtual American Corners—
                 “ATMs” That Tell America’s Story

                 Issue: Public Affairs Section Vilnius lacked the funding to establish additional
                 American Corners to expand its outreach and provide up-to-date and interest-
                 ing information about the United States.
                 Response: A local computer hardware and software company developed
                 InfoUSA terminals, interactive platforms about the size of an ATM that can
                 be moved easily from site to site and reach host country audiences in a variety
                 of venues. PAS placed the kiosks in a shopping center in Vilnius, a public
                 library in northeastern Lithuania, and at an indoor water park in southern
                 Lithuania. Each kiosk is a simple touchscreen computer preloaded with
                 information and videos about U.S. history, culture, geography, and people
                 (including noted Lithuanian Americans), as well as basic travel and visa regu-
                 lations and live links to the embassy’s Facebook page. PAS staff translated all
                 content into Lithuanian. The only expenses for kiosk maintenance are elec-
                 tricity and Internet connection utilities. Operational 24/7, the kiosks—with
                 the proper connection—can also project onto a wall a larger image of what is
                 on the computer screen, allowing for greater audience participation. PAS makes
                 kiosk content available on computer discs, which it encourages school groups
                 visiting the Information Resource Center to take home and use.
                 Result: PAS Vilnius has greatly expanded its outreach efforts at minimal cost.
                 From their opening in late 2012 to mid-May 2013, the InfoUSA kiosks attracted
                 a total of 110,000 individual visitors, with nearly 90 percent of them logging on
                 at the shopping center and the water park. The cost was 41 cents per visitor, with
                 the unit cost projected to decline as the number of visitors rises.




Inspection of Embassy Minsk, Belarus (ISP-I-13-42A)
Embassy Minsk had been unable to comply with numerous security, consular,
information technology, reporting, and management requirements, primarily because
of a five-person staffing ceiling imposed by the Government of Belarus. Conversely,
the ratio of local staff to American staff was too high, with 119 locally employed staff
members supporting 5 U.S. direct hires. Senior embassy officials had made inap-
propriate visa referrals. Host government limitations on American staff numbers in
Minsk had forced most Belarusians to apply for visas outside Belarus. With referrals
affording the only access to a Minsk interview for many visa applicants, the referral
program was unusually vulnerable to misuse.
The chancery was in seriously degraded condition, necessitating that embassy
employees work from an annex. A $34-million OBO rehabilitation project, scheduled
for 2010, was suspended because of staffing restrictions. Without maintenance, the
chancery would continue to deteriorate. In addition, the Belarusian Government


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   25
     gave the embassy a March 2014 deadline to move public affairs employees from the
     section’s leased office space. The building in question also had serious fire and life
     safety issues that made it unsuitable for diplomatic operations. OIG recommended
     that the embassy terminate the lease and relocate public affairs employees.

     Inspection of Embassy Kyiv, Ukraine (ISP-I-13-45A)
     Embassy Kyiv, the second largest U.S. diplomatic mission in Eastern Europe after
     Moscow, provided high-quality reporting and analysis, assisted U.S. businesses,
     and ran an active public diplomacy program. Among successes, the embassy
     obtained millions of dollars of overdue refunds of value-added taxes owed to U.S.
     companies. The embassy moved into a new $244-million facility in 2012, which
     had increased operational coordination among the nine agencies at post.
     OIG confirmed indications that organized crime had infiltrated the Visa Diversity
     program and recommended the Bureau of Consular Affairs address the issue without
     delay. OIG also recommended the Department consider converting the Marine house
     into multiple apartments rather than a new residence for the deputy chief of mission;
     doing so could yield savings of between $200,000 and $300,000 annually. Overtime
     payments to local staff were excessive, and OIG recommended that the embassy
     bring them under control.


                      INNOVATIVE PRACTICE: Reorientation of Locally
                      Employed Staff

                      Issue: Human resources offices generally brief LE staff when they begin their
                      careers at the embassy. Issues such as performance management, salary and
                      benefit policies, awards, training, and EEO activities are on the agenda. After
                      this original briefing, the LE staff members are not briefed again and instead
                      are told to read the local employee staff handbook if they have questions. If
                      they are proactive, they may reach out to the human resources office but,
                      unfortunately, most do not.
                      Response: Embassy Kyiv began a program to reorient the LE staff with new
                      policy information. Orientation is done once a week in small groups and will
                      continue until all are briefed.
                      Result: Inspectors frequently encountered LE staff members during interviews
                      who did not understand aspects of the policies and procedures they are required
                      to follow. These small group briefings refocus LE staff members on policies and
                      procedures and generally enhance their understanding of these documents.




26   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
                 INNOVATIVE PRACTICE: Protection of Intellectual
                 Property Rights

                 Issue: Ukraine has inadequate intellectual property rights laws and weak
                 enforcement. Piracy is rampant. Much of the public and officialdom see intel-
                 lectual property rights protection as serving foreign commercial interests. The
                 challenge for U.S. diplomacy is to help Ukrainians make a case that intel-
                 lectual property rights protection will support indigenous innovation and
                 economic growth.
                 Response: Embassy Kyiv successfully competed for a grant of $10,940 from the
                 Department’s Fund for Innovation in Public Diplomacy to sponsor a contest
                 among teams of students from Ukrainian universities. The teams wrote academic
                 papers that assessed the impact on their country’s economic growth should Ukraine
                 adopt comprehensive intellectual property rights protection. The economic and
                 public affairs sections collaborated in designing and implementing the project.
                 Result: Teams of five students from nine universities submitted papers. A panel
                 of nine judges—four from the embassy and five from the local artistic and
                 academic communities—selected one winning team from Kyiv and one from outside
                 Kyiv. The Ambassador hosted a reception for the winning teams, with invited guests
                 from the government, parliament, and intellectual property rights communities. The
                 embassy awarded iPads to the winning students, and will disseminate their papers.




Inspection of Embassy Moscow and Constituent Posts, Russia (ISP-I-13-48A)
Despite a difficult U.S.-Russia relationship, Embassy Moscow was effectively advanc-
ing a broad policy agenda and representing U.S. interests under the strong leadership
of the Ambassador and deputy chief of mission. The embassy was skillfully carrying
out public diplomacy programs in an environment where the Russian Government
had expanded control over the news media, harassed nongovernmental organiza-
tions, and pressured partner institutions to limit cooperation on U.S. Government-
sponsored programs. Embassy reporting was balanced, well sourced, and relevant.
The consular section had done a good job assisting U.S. parents in coping with the
termination of adoptions of Russian children, but needed to monitor Russia’s compli-
ance with the bilateral visa agreement.
The embassy was working well with the Department to begin the construction
of office facilities in Moscow and St. Petersburg to replace obsolete buildings;
however, the embassy could save $2.7 million annually by leasing or selling units
at the remote Rosinka compound. OIG recommended that the embassy better
manage its inventory of leased properties and recommended that the embassy
monitor Russian compliance with the bilateral visa agreement. OIG also made
recommendations to eliminate positions, including three dealing with law
enforcement assistance.


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   27
     Bureau of Near Eastern Affairs

     Inspection of Embassy Baghdad and Constituent Posts, Iraq (ISP-I-13-25A)
     The Ambassador and deputy chief of mission provided uncommon continuity and
     extraordinary policy engagement as Mission Iraq was transforming from a wartime
     operation into a normal diplomatic platform. However, the mission needed Department
     assistance with several rightsizing and military-to-civilian contract issues because short
     tours of duty and frequent personnel turnover inhibited long-term project implemen-
     tation. Mission Iraq also faced challenges in oversight and monitoring of many of its
     programs, made more difficult by inadequate staffing, more than $5 billion in contracts,
     and $500 million in construction projects, and substantial Department-funded grant
     assistance ($70 million planned in FY 2014). The mission also needed to determine
     whether several unique and costly legacy security programs were still required.
     OIG recommended that the mission implement contract oversight transition and
     advance acquisitions plans to reduce the risk of waste, fraud, and mismanagement,
     as well as a formal risk management study to determine if security countermeasures
     were appropriate. OIG also recommended that the mission determine the diplomatic
     platform needed in Basrah, outline the orderly closure of facilities in Baghdad, and
     plan the new compound in Erbil based on the recent rightsizing study.

     Compliance Followup Review of Embassy Beirut, Lebanon (ISP-C-13-27A)
     The embassy effectively represented U.S. strategic and commercial interests and produced
     a high volume of valuable reporting that met the needs of Washington policymakers.
     Physical security vulnerabilities at mission facilities placed employees at risk. Mission
     morale remained low due to increased security restrictions on personal and work-related
     travel outside the embassy compound and overcrowded office space. Security will
     improve when a new embassy compound is built, but Beirut was listed as an alternate
     mission for 2016 in the Department of State Capital Security Construction Program.
     Embassy Beirut had complied with all but 2 of the 34 formal recommendations and
     all of the informal recommendations from the 2012 inspection report. The compli-
     ance followup review security annex reissued and redirected action on eight recom-
     mendations contained in the 2012 security annex.

     Inspection of Embassy Rabat and Consulate General Casablanca, Morocco
     (ISP-I-13-30A)
     Mission Morocco had requested a new consulate compound in Casablanca, and the
     Bureau of Overseas Buildings Operations estimated total construction costs at $170
     million. These costs could be eliminated by relocating consulate operations and staff
     to Embassy Rabat. Closing Consulate General Casablanca would also eliminate five
     U.S. direct-hire positions for an additional savings of more than $2.5 million yearly.


28   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
These cost savings would be offset by the costs (unknown at this time) to construct a
new consular annex in Rabat.
Mission Morocco had serious management control deficiencies and did not exercise
adequate interagency oversight and coordination. OIG recommended that an inter-
agency working group on commercial advocacy and export promotion be established
and that an office management position and several eligible family member positions
be eliminated. Elimination of the office management position would put to better
use $570,000 in funding. Bilateral cooperation on counterterrorism and law enforce-
ment was strong.

  Consulate Closures
  OIG has identified where the Department could eliminate or downsize consulates
  or consular agencies. For example, OIG found that Embassy Rabat could absorb the
  workload currently carried out by the consulate in Casablanca, which is located less
  than 60 miles from the Embassy. Closing the consulate would result in the elimination
  of five positions, for a savings of more than $2.5 million annually. Closing the consul-
  ate would also eliminate the need for construction of a new building in Casablanca, esti-
  mated at $170 million. Reviewing potential consulate closures supports the Quadrennial
  Diplomacy and Development Review (QDDR) goal of “Working Smarter.” Over the
  last 5 years, OIG has recommended downsizing or closing consulates and consular
  agencies in a number of countries, including Portugal, Spain, Germany, and South
  Africa. However, the Department has not closed any consulates since 2008, when it
  closed Lille, France. Since 2008, the Department has opened eight consulates and two
  other diplomatic posts, many due to the creation of new countries, such as South Sudan
  and Montenegro, or reestablishing and expanding relations with Iraq and Afghanistan.



Bureau of Western Hemisphere Affairs

Inspection of Embassy Brasilia and Constituent Posts, Brazil (ISP-I-13-40A)
A strong executive team was leading Embassy Brasilia to successfully promote and
strengthen a vibrant U.S.-Brazil bilateral relationship as Brazil became an increasingly
important partner in world affairs. The mission had expanded rapidly to provide a
platform for U.S. economic interests and increased bilateral cooperation and to meet
the demand for consular services by Brazil’s growing middle class. Economic report-
ing and export promotion efforts were strong, but political reporting suffered from
a lack of context and comment. Coordination among various Department and
mission elements on the completion of two proposed consulates and the relocation
of a third needed improvement. The Consulate General Rio de Janeiro facility
remained a serious concern, but the search for a new facility received less focus in
the mission and the Department than the situation merited.


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   29
     OIG recommended to the mission that it strengthen its reporting. OIG also
     recommended that the mission identify a new facility for Consulate General Rio
     de Janeiro and provide more coordination and oversight of the mission’s efforts
     to relocate and establish new consulates and to respond to its increased staffing,
     among other operational deficiencies.
     Note: On August 20, 2013, the Department designated the consulate in Recife as a U.S. consulate general.




                        INNOVATIVE PRACTICE: Computer Application to Rapidly
                        Process Waiver of Interview Cases

                        Issue: Processing nonimmigrant visa cases for which an interview is waived can
                        be time consuming. Officers have to individually open the files, wait for them
                        to load, and enter repetitive annotation language.
                        Response: An officer at Consulate General Sao Paulo developed an application
                        that opens an entire batch of files at once, inserts standard annotations, and
                        otherwise sorts the cases for more efficient processing.
                        Result: The application resulted in much faster processing of nonimmigrant
                        visa cases and an overall saving in officer time.




                        INNOVATIVE PRACTICE: Secondary Adjudication Windows

                        Issue: Nonimmigrant visa adjudicators frequently encountered cases at the
                        interview window that required additional scrutiny for possible grounds of
                        ineligibility or referral to the fraud prevention unit. Time was lost as adjudica-
                        tors performed the necessary research or sought assistance from colleagues.
                        Response: Mission Brazil examined its process and concluded that referring
                        applicants with complex cases immediately to a secondary window staffed by an
                        experienced adjudicator could help maintain service standards while ensuring
                        that the cases receive the necessary extra scrutiny.
                        Result: Applicants receive better customer service, while the secondary adjudicators
                        gain additional experience and deepen their knowledge of visa law and regulations.




30   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
PROGRAM REVIEWS AND SPECIAL REPORTS

Review of the Process for Establishing Language Designated Positions (ISP-I-13-24)
The Department spent approximately $195 million providing language training to its
employees in FY 2012. Employees en route to language designated positions—those
for which language skills are essential—are provided language training if they do not
already have language skills at the required level. Given the strategic importance of
language training, and its cost, the Department needs to give greater attention to how
it determines language requirements. This review and other inspections conducted by
OIG found that some positions identified as language designated do not in fact require
foreign language skills. Other positions are not language designated but should be.
Oversight of language designations was insufficient to identify when the Department
is over- or under-designating language requirements. Most decisions were made at
the embassy level. The Department did not review language requirements across
embassies and regional bureaus to facilitate consistent application of language desig-
nation criteria and appropriate distribution given U.S. policy priorities. Several factors
outside the “essential” criterion drove language designations. Stronger oversight
was needed to facilitate better use of Department resources. Establishing language
requirements at the professional level at an embassy can trigger language train-
ing lasting from 6 months to 2 years, for which the OIG team estimated a cost of
between $105,000 and $480,000 per student.
The language incentive pay program, designed to encourage officers to gain and maintain
language skills in certain “hard” and “super hard” languages, has, until recently, suffered
from lack of oversight. The Department has begun closely reviewing the program, which
totaled $11.4 million in 2012. OIG made recommendations to assist in this effort.

Inspection of the Regional Procurement Support Offices Frankfurt, Germany,
and Fort Lauderdale, United States (ISP-I-13-34)
The Regional Procurement Support Offices (RPSO) in Frankfurt and Fort
Lauderdale were both providing responsive service to their customers. LE staff
salaries in Frankfurt were among the highest in the world, and too many of RPSO
Frankfurt’s resources were dedicated to low dollar value procurement actions. RPSO
Fort Lauderdale had not assessed its staffing level after the completion of the Merida
Initiative. The bureaus and agencies that use both RPSOs had not coordinated with
the offices regarding their annual acquisition plans, creating significant inefficiencies.
OIG recommended that the Bureau of Administration review the viability of relocating
RPSO Frankfurt to lower-cost locations and determine whether RPSO Frankfurt should
continue to support procurement actions under $25,000. OIG also recommended that the
Bureau of Administration carry out a workload study for RPSO Fort Lauderdale to assess
its staffing needs and require all bureaus to share their acquisitions plans with the RPSOs.


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   31
     Special Review of the Accountability Review Board Process (ISP-I-13-44A)
     OIG determined that the ARB process operated as intended—independently and
     without bias—to identify vulnerabilities in the Department’s security programs;
     however, the Department lacked a conceptual framework or risk management process
     to determine if the strategic value of a program outweighed associated risks. OIG
     also determined that implementation of ARB recommendations required sustained
     oversight by Department principals to ensure long-term security program improve-
     ments and to avoid reissuing recommendations for vulnerabilities identified in previous
     ARBs. The Department lacked an adequate system to determine which incidents might
     rise to the level of an ARB and, as a result, missed opportunities to improve security
     programs and enhance security. It also lacked an established system to include input
     from diplomatic and intelligence sources on assessments of security at overseas posts.
     The Department was making progress implementing the Benghazi ARB recom-
     mendations, but many of them remained to be fully formalized. The Department
     planned to implement a Benghazi recommendation to revise the law and regulations
     to authorize future ARBs to recommend disciplinary action for unsatisfactory lead-
     ership performance related to a security incident. The Benghazi ARB also recom-
     mended establishment of a panel to examine the organization and management
     structure of the Bureau of Diplomatic Security and to advise the Department on best
     practices from other organizations. However, the Department would need to widely
     share this information to realize the potential benefits. OIG made recommendations
     to address these and other deficiencies in the ARB process.

     Review of Consular Wilberforce Compliance (ISP-I-13-43)
     Consular officers at 21 embassies surveyed by OIG appeared to be complying with
     provisions of the 2008 William Wilberforce Trafficking Protection Reauthorization
     Act by providing relevant visa applicants with written information about their rights
     under the law. OIG recommended the Bureau of Consular Affairs add a feature to
     its consular software to indicate when applicants have received Wilberforce informa-
     tion. OIG also recommended that the Bureau of Consular Affairs highlight online
     Wilberforce training in its next consular cable.

     Review of the Department of State Ethics Program (ISP-I-13-52)
     The Office of the Legal Adviser made significant progress reviewing a large backlog
     of financial disclosure reports, for which it had been criticized by the Office of
     Government Ethics. The Department has more presidential appointees than any
     other Federal agency, and its ethics workload is consistently higher. OIG recom-
     mended the Department hire additional ethics staff, improve tracking systems to
     identify employees required to file financial disclosure reports, and enforce require-
     ments for annual ethics training. These recommendations were consistent with
     those made by the Office of Government Ethics.


32   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
OFFICE OF INVESTIGATIONS

CONTRACT FRAUD
OIG conducted an investigation after receiving allegations of improper activities being
committed by a major contractor that provides survey services to the Department
and other agencies. The investigation determined that the contractor provided false
pricing information to the Department during negotiations for a 5-year, sole source
contract worth $25,000,000. OIG led a multi-agency investigation which resulted in
the contractor agreeing to pay a $10.5-million civil settlement for improperly inflating
Department and U.S. Mint contract prices and engaging in prohibited employment
negotiations with a Federal Emergency Management Agency official.
OIG conducted a joint investigation with the Internal Revenue Service following
media reports that a Department of State contract specialist steered more than $39
million in contracts to a company she and her husband controlled. The investigation
confirmed the allegations, and on August 2, 2013, both the contract specialist and
her husband pleaded guilty to major fraud against the United States, conspiracy to
commit illegal monetary transactions, and illegal monetary transactions. They also
agreed to a criminal forfeiture judgment. The contracting specialist was also termi-
nated from employment with the Department. Sentencing of both parties is sched-
uled for December 6, 2013. Additionally, the Office of the Procurement Executive
debarred the two defendants and their company from participation in Federal
Government contracting for 3 years.
OIG conducted an investigation based upon information received from the Special
Inspector General for Afghanistan Reconstruction and the Federal Bureau of
Investigation alleging that a personal services contractor, acting as an international
contracting officer’s representative, solicited money from construction contractors
in exchange for awarding and/or manipulating the awarding of the contracts. On
May 18, 2010, the contract employee was terminated from employment, and was
subsequently suspended from any contracting activity with the Department. The
former contract employee was indicted on April 2, 2013, and on September 19, 2013,
agreed to plead guilty to the charge of Receipt of Gratuity by a Public Official. The
former contract employee further agreed to a criminal monetary judgment against
him in the amount of $30,000, which was the amount of the gratuity he received.
Sentencing is scheduled for January 14, 2014.
OIG conducted a joint investigation with the OIG for USAID into allegations that
two foreign real estate companies paid bribes to two LE staff members at the local
embassy in order secure U.S. Embassy lease agreements. During the investigation,
the company presidents admitted to paying the bribes and both employees were


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   33
     terminated from employment at the embassy. On May 9, 2013, the Office of the
     Procurement Executive issued six contracting debarments for a period of 3 years in
     connection with the case, two for each former employee, two for the two firms, and
     two for the presidents of each firm.


     FALSE CLAIMS
     OIG conducted an investigation of an assistant regional security officer who submit-
     ted a false reimbursement voucher in connection with an extended hotel stay. The
     investigation determined that the officer knowingly submitted two fraudulent
     vouchers for reimbursement to the Department and received $14,630.83 to which he
     was not entitled. On March 11, 2012, The Department of Justice declined criminal
     prosecution of the officer. On March 28, 2012, the Bureau of Resource Management
     initiated a collection action against the officer for the full amount of the false claims,
     and on April 23, 2013, the Bureau of Human Resources issued a 10 day suspension
     to the officer.


     OVERSIGHT REVIEW
     The Office of Investigations (INV) is conducting an independent oversight review
     of certain investigations conducted by the Bureau of Diplomatic Security, Office of
     Investigations and Counterintelligence, Special Investigations Division (DS/ICI/SID).
     This is an in-depth review of the DS/ICI/SID investigations to assess the adequacy of
     the investigative process.


     FOLLOWUP ACTIONS

     False Claims
     OIG conducted an investigation based on information that a Department employee
     committed fraud by submitting false time-and-attendance records and fraudulent
     claims for overtime pay. The investigation determined that, as a result of the fraud,
     the employee was paid $7,245.68 in wage compensation that she was not entitled to
     receive. The case was referred to Superior Court for the District of Columbia, and
     on January 29, 2013, the employee was arrested for theft. On March 12, 2013, the
     employee was convicted and sentenced to 180 days confinement (suspended) and 3
     years probation, and was ordered to pay full restitution in the amount of $7,245.68
     and a $50 fine. On April 5, 2013, the Bureau of Human Resources issued a notice
     of termination to the employee. (See the OIG Semiannual Report to the Congress,
     October 1, 2012 to March 31, 2013, pp. 33-34.)




34   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
  Suspension/Debarment Oversight
  During this reporting period, the INV received an Award for Excellence from the
  Council of Inspectors General for Integrity and Efficiency for “exceptional perfor-
  mance in establishing a highly effective Suspension and Debarment Program within
  the OIG and the Department of State, which resulted in successfully safeguarding
  U.S. Government interests.”
  Referrals of matters for suspension/debarment consideration from OIG accounted
  for more than 90% of all suspension and debarment referrals for action for the
  Department. In 2011, OIG and the Office of the Procurement Executive (OPE) began
  the creation of a formal process to refer information for suspension and debarment
  action, and also initiated a regimen of education into INV and OPE best practices
  with respect to suspension and debarment actions. For several years prior to this, there
  were fewer than five total suspension or debarment actions within the Department.
  Since initiation of this process and education, the Department has implemented more
  than 95 total suspensions and debarments, demonstrating the clear, dramatic, and
  fundamental impact an effective and necessary program can have on an agency.



DATA AND INVESTIGATIVE ACTIVITIES

Hotlines

                    Total Complaints Received                            732
                    Referral To Other Offices for Action                 627
                    Held for Action Within OIG                           54
                    No Action Necessary                                   51


Types of Cases

                                              Procurement
                                                 Fraud
                                                  63%


                     Other
                      8%               Conflict
                                      of Interest       Theft
                                          17%            8%


                                                                                Employee
                                                                               Misconduct
                                                                                   4%
                                                             Note: May not equal 100% due to rounding.


OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013      35
     APPENDIX 1: INVESTIGATIVE
     ACTIVITIES

               Preliminary Inquiries
                 Opened                                                            42
                 Closed                                                            35
               Investigations
                 Opened                                                           24
                 Closed                                                            35
                 Pending (9/30/13)                                                125
               Criminal Actions
                 Referrals for Prosecution                                         5
                 Indictments/Informations                                          2
                 Convictions                                                       2
                 Sentencings (Months Imprisonment)                                 0
                 Sentencings (Months Probation)                                    0
                 Declinations                                                      15
               Civil Actions
                 Civil Referrals                                                    0
                 Civil Judgments                                                    0
                 Civil Declinations                                                 4
               Administrative Referrals
                 Referrals for Personnel Action                                    2
                 Suitability Referrals to DS                                       2
                 Contractor Suspensions/Debarment Referrals to OPE                 12
               Administrative Actions
                 Removals                                                          5
                 Suspensions                                                       1
                 Reprimand/Admonishments/Warning Memorandum                        3
                 Contractors/Grantees Suspended                                    5
                 Contractors/Grantees Debarred                                     11
                 Contractors/Grantees High Risk                                    0
               Monetary Recoveries
                 Criminal Fines/Recoveries                                               $0
                 Civil Recoveries                                            $10,530,000.00
                 Administrative Recoveries                                               $0
                Total Investigative Recoveries                              $10,530,000.00



36   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
APPENDIX 2: REPORTS ISSUED


 Report Number         Report Title

 AUD-CG-13-31          Audit of Grant Closeout Processes for Selected Department of State Bureaus
 AUD-CG-13-35          Audit of Bureau of Population, Refugees and Migration Oversight of Selected
                       Cooperative Agreements in Support of Colombian Refugees in Ecuador
 AUD-CG-13-42          Audit of Norwegian People’s Aid Under Department of State and U.S. Agency for
                       International Development Multiple Agreements for Year Ended Dec. 31, 2010
 AUD-FM-13-29          Audit of Department of State Application of the Procurement Fee to
                       Accomplish Key Goals of Procurement Services
 AUD-FM-13-36          Audit of Selected Working Capital Fund Cost Center Financial Results
 AUD-HCI-13-27*        Outline for Action: Physical Security Concerns at Embassy N’Djamena
 AUD-HCI-13-28*        Outline for Action: Physical Security Concerns at Embassy Monrovia
 AUD-HCI-13-41         Outline for Action: Local Guard Contractor Did Not Comply With Contract
                       Terms Regarding Supplemental Wage Allowance
 AUD-IT-13-39*         International Boundary and Water Commission, United States and Mexico,
                       U.S. Section, Information Security Program
 AUD-MERO-13-33        Audit of the U.S. Mission Iraq Staffing Process
 AUD-MERO-13-37        Audit of the Bureau of International Narcotics and Law Enforcement Affairs
                       Corrections Systems Support Program in Afghanistan
 AUD-SI-13-32*         Audit of Department of State Compliance with Physical and Procedural
                       Security Standards at Selected High Threat Level Posts
 ISP-C-13-27A          Compliance Followup Review of Embassy Beirut, Lebanon
 ISP-C-13-51           Compliance Followup Review of the Bureau of Educational and Cultural Affairs
 ISP-I-13-24           Review of the Process for Establishing Language-Designated Positions
 ISP-I-13-28           Inspection of the Bureau of International Information Programs
 ISP-I-13-32           Inspection of the Regional Support Center, Frankfurt, Germany
 ISP-I-13-33           Inspection of the Florida Regional Center, Fort Lauderdale, United States
 ISP-I-13-34           Inspection of the Regional Procurement Support Offices, Frankfurt, Germany,
                       and Fort Lauderdale, United States
 ISP-I-13-35           Inspection of the Bureau of Consular Affairs, Office of the Executive Director
 ISP-I-13-36           Inspection of the Bureau of Consular affairs, Office of the Comptroller
 ISP-I-13-38           Inspection of the Bureau of Information Resource Management, Office of
                       Information Assurance
 ISP-I-13-39           Inspection of the Bureau of East Asian and Pacific Affairs



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013     37
       Report Number                    Report Title

      ISP-I-13-43                       Review of Consular Wilberforce Compliance
      ISP-I-13-47                       Inspection of the Office of the U.S. Global AIDS Coordinator
      ISP-I-13-52                       Review of the Department of State Ethics Program
      ISP-I-13-25A                      Inspection of Embassy Baghdad and Constituent Posts, Iraq
      ISP-I-13-29A                      Inspection of Embassy Juba, South Sudan
      ISP-I-13-30A                      Inspection of Embassy Rabat and Consulate General Casablanca, Morocco
      ISP-I-13-37A                      Inspection of Embassy Khartoum, Sudan
      ISP-I-13-40A                      Inspection of Embassy Brasilia and Constituent Posts, Brazil
      ISP-I-13-41A                      Inspection of Embassy Vilnius, Lithuania
      ISP-I-13-42A                      Inspection of Embassy Minsk, Belarus
      ISP-I-13-44A                      Special Review of the Accountability Review Board Process
      ISP-I-13-45A                      Inspection of Kyiv, Ukraine
      ISP-I-13-48A                      Inspection of Embassy Moscow and Constituent Posts, Russia
     * Sensitive content related to these reports is included in the Classified Annex to the Semiannual Report to the Congress.



     CLASSIFIED REPORTS ISSUED

       Report Number                    Report Title

      AUD-HCI-13-30                     Outline for Action: Physical Security Concerns at Embassy Nouakchott
      AUD-HCI-13-34                     Outline for Action: Physical Security Concerns at Embassy Dakar
      AUD-HCI-13-40                     Audit of Department of State Compliance with Physical Security Standards at
                                        Selected Posts within the Bureau of African Affairs
      AUD-IT-13-38                      Audit of the Information Security Program for Sensitive Compartmented
                                        Information Systems at the Department of State
      ISP-S-13-25A                      Classified Annex to the Inspection of Embassy Baghdad and Constituent Posts,
                                        Iraq
      ISP-S-13-27A                      Classified Annex to the Compliance Followup Review of Embassy Beirut,
                                        Lebanon
      ISP-S-13-29A                      Classified Annex to the Inspection of Embassy Juba, South Sudan
      ISP-S-13-30A                      Classified Annex to the Inspection of Embassy Rabat and Consulate General
                                        Casablanca, Morocco
      ISP-S-13-31                       Inspection of the Bureau of Intelligence and Research
      ISP-S-13-37A                      Classified Annex to the Inspection of Embassy Khartoum, Sudan
      ISP-S-13-40A                      Classified Annex to the Inspection of Embassy Brasilia and Constituent Posts,
                                        Brazil




38   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
 Report Number         Report Title

 ISP-S-13-41A          Classified Annex to the Inspection of Embassy Vilnius, Lithuania
 ISP-S-13-42A          Classified Annex to the Inspection of Embassy Minsk, Belarus
 ISP-S-13-45A          Classified Annex to the Inspection of Embassy Kyiv, Ukraine
 ISP-S-13-48A          Classified Annex to the Inspection of Embassy Moscow and Constituent Posts,
                       Russia
 ISP-S-13-53           Detainee Transfers, Assurances, and Monitoring: Report and Compliance
                       Followup Review




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   39
     APPENDIX 3: SAVINGS AND MORE
     EFFECTIVE USE OF RESOURCES

     TABLE 1: INSPECTOR GENERAL ISSUED REPORTS WITH
     QUESTIONED COSTS
                                                                                   Questioned       Unsupported
                                                                                     Costs             Costs
                                                                      No. of       (Dollars in       (Dollars in
     Type of Report                                                  Reports       Thousands)       Thousands)

     A.      For which no management decision had been made             101          $134,9391          $41,6271
             by the commencement of the reporting period

     B.      Which were issued during the reporting period

             Audits
             Audit of Bureau of Population, Refugees and Migration                          $2
             Oversight of Selected Cooperative Agreements
             in Support of Colombian Refugees inEcuador
             (AUD-CG-13-35)
             Audit of Norwegian People’s Aid Under Department of                           $20                $6
             State and U.S. Agency for International Development
             Multiple Agreements for Year Ended December 31,
             2010 (AUD-CG-13-42)

             Total issued during the reporting period                    2                 $22                $6
             Subtotals (A+B)                                            12           $134,961           $41,633

     C.      For which a management decision was made
             during the reporting period
             (i) dollar value of disallowed costs                        2              $2,703                  -
             (ii) dollar value of costs not disallowed                   1                 $34                  -

     D.      For which no management decision has been                  12           $132,224            $41,633
             made by the end of the reporting period

     E.      Reports for which no management decision                   11           $132,203            $41,627
             was made within six months of issuance

     1
         Final amounts in the previous Semiannual Report were adjusted based on updated information and analysis of
         open recommendations.




40   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
TABLE 2: INSPECTOR GENERAL ISSUED REPORTS WITH
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                                   No. of       Dollars
Type of Report                                                                    Reports   (in Thousands)

A. For which no management decision had been made by the                            221         $132,2191
   commencement of the reporting period
B.      Which were issued during the reporting period

       Audits
       Audit of Grant Closeout Processes for Selected Department of State                          $9,400
       Bureaus (AUD-CG-13-31)
       Audit of Selected Working Capital Fund Cost Center Financial                               $29,900
       Results (AUD-FM-13-36)

       Inspections
       Inspection of Embassy Rabat and Consulate General Casablanca,                             $171,661
       Morocco (ISP-I-13-30A)
       Inspection of the Regional Support Center Frankfurt, Germany                                $1,854
       (ISP-1-13-32)
       Inspection of the Florida Regional Center Fort Lauderdale, United                             $594
       States (ISP-1-13-33)
       Inspection of the Regional Procurement Support Offices, Frankfurt,                            $568
       Germany, and Fort Lauderdale, United States (ISP-1-13-34)
       Inspection of the Bureau of East Asian and Pacific Affairs (ISP-1-13-39)                      $594
       Inspection of Embassy Moscow and Constituent Posts, Russia                                  $1,236
       (ISP-1-13-48A)

        Total issued during the reporting period                                    8           $215,807
        Subtotals (A+B)                                                             30          $348,026

C. For which a management decision was made during the                              9             $84,018
   reporting period
       (i) dollar value of recommendations that were agreed                         7             $26,500
           to by management
           – based on proposed management action
           – based on proposed legislative action
       (ii) dollar value of recommendations that were not agreed                    6             $57,518
            to by management

D. For which no management decision has been made by the                            25          $264,008
   end of the reporting period

E.      Reports for which no management decision was made                           17            $48,970
        within six months of issuance
1
    Final amounts in the previous Semiannual Report were adjusted based on updated information and analysis of
    open recommendations.



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013              41
     TABLE 3: DEFENSE CONTRACT AUDIT AGENCY (DCAA) AUDITS
     The following information was provided by the Department’s Office of Acquisition
     Management (AQM) and pertains to audits of contracts awarded by the Department.
     AQM’s Business Operations Division, Quality Assurance Branch, in collaboration
     with the Office of Inspector General, is responsible for initiating and coordinating
     audits with the Defense Contract Audit Agency (DCAA) in support of the contract-
     ing officers. Documented below are the reports issues and the associated questioned
     costs during this reporting period. OIG did not verify the values shown.


      Report Number      Report Title                          Report Date            Questioned Costs
      2012D11015008      Audit Report of DynCorp DBA Post      April 12, 2013                       $0
                         Payment
      2010D11015073      Audit Report on DynCorp Post          May 7, 2013                          $0
                         Payment Voucher Review

      2012D17900003      Audit Report of DynCorp Camp          May 15, 2013                  $366,007
                         Falcon Food Services - Meals and
                         Water Costs Invoiced
      2007A10100782      Independent Audit Report of           May 30, 2013               $11,914,330
                         Academi, LLC 2007 Incurred Costs
      2011B17100002      Independent Audit of EOD              September 5, 2013            $6,165,311
                         Technology, Inc. - Security
                         Services Division’s Termination for
                         Convenience Settlement Proposal for
                         the Kabul Embassy Security Force
                         (KESF) Task Order
                                                               Total Questioned           $18,445,648




42   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
APPENDIX 4: RESOLUTION OF
REPORTS AND RECOMMENDATIONS

SIGNIFICANT OFFICE OF AUDITS RECOMMENDATIONS
PENDING FINAL ACTION

 Report               Rec.    Report Title                                                     First
 Number               No.     Recommendation Summary                                           Reported
 AUD-IQO-07-20                Review of DynCorp International, LLC, Contract                     1/07
                              Number S-LMAQM-04-C-0030, Task Order 0338, for
                              the Iraqi Police Training Program Support (Joint audit
                              with the Special Inspector General for Iraq Reconstruction)
                        2     OIG recommended the Office of Acquisitions
                              Management seek reimbursement from DynCorp for
                              the improperly authorized payment of $4.2 million that
                              represents contractually unauthorized work directed
                              by the Iraqi Ministry of Interior. This work included
                              the relocation of the residential camp, the manufacture
                              of additional VIP trailers, and the construction of an
                              Olympic-size swimming pool.
 AUD-IQO-07-48                Accounting for Government-Owned Personal Property                  9/07
                              Held by Selected Contractors in Afghanistan
                        1     OIG recommended the Department develop and
                              implement policies and procedures to achieve
                              compliance with Federal Acquisition Regulation
                              requirements for reviewing a contractor’s property
                              control system.
                        5     OIG recommended the Department evaluate its current
                              structure for monitoring government property held by
                              contractors, assess the benefits of creating a property
                              administrator function, and use this evaluation to clearly
                              define the authority and responsibility for property oversight
                              for each member of its contract administration team.
 AUD-IQO-09-25                Audit of the Design and Construction of the New Embassy            10/09
                              Compound in Baghdad, Iraq
                        1     OIG recommended that the Contracting Officer, Bureau
                              of Administration, Office of Logistics Management,
                              attempt to recover $4.6 million from First Kuwaiti
                              Trading and Contracting for the infrastructure contract
                              to make the necessary corrections to the safe areas in the
                              New Embassy Compound.



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013       43
     Report               Rec.     Report Title                                                First
     Number               No.      Recommendation Summary                                      Reported
                             2     OIG recommended that the Contracting Officer, Bureau
                                   of Administration, Office of Logistics Management,
                                   attempt to recover $14 million for the housing,
                                   infrastructure, support facilities, and the chancery
                                   contracts from First Kuwaiti Trading and Contracting
                                   to perform the necessary design and retrofit of seismic
                                   bracing in the New Embassy Compound.
                             4     OIG recommended that the Contracting Officer, Bureau
                                   of Administration, Office of Logistics Management,
                                   attempt to recover $1.7 million for contracts from First
                                   Kuwaiti Trading and Contracting for the housing,
                                   infrastructure, support facilities, and the chancery
                                   contracts so that the necessary repairs to the exterior
                                   walls and walkway and road surfaces can be made.
                             6     OIG recommended that the Contracting Officer, Bureau
                                   of Administration, Office of Logistics Management,
                                   attempt to recover approximately $500,000 from First
                                   Kuwaiti Trading and Contracting for the infrastructure
                                   contract to increase the penthouse size and air flow
                                   through the louvers of the Utility Building.
                             7     OIG recommended that the Contracting Officer, Bureau
                                   of Administration, Office of Logistics Management,
                                   attempt to recover approximately $11 million from First
                                   Kuwaiti Trading and Contracting for the infrastructure
                                   contract to compensate the Department of State for
                                   additional operating costs that will be incurred because
                                   the configuration of the Utility Building/Generator Plant
                                   was changed from the 10 2-megawatt configuration to
                                   18 1-megawatt generators.
                             8     OIG recommended that the Contracting Officer,
                                   Bureau of Administration, Office of Logistics
                                   Management, attempt to recover between $4.2 million
                                   and $4.4 million from First Kuwaiti Trading and
                                   Contracting for the infrastructure contract to correct
                                   all deficiencies to the electrical wiring, control, and
                                   distribution systems at the New Embassy Compound.
                             9     OIG recommended that the Contracting Officer,
                                   Bureau of Administration, Office of Logistics
                                   Management, attempt to recover an estimated
                                   $500,000 from First Kuwaiti Trading and Contracting
                                   for the infrastructure contract so that the necessary
                                   functions can be added to the building automation
                                   system at the New Embassy Compound.




44   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
Report               Rec.     Report Title                                                    First
Number               No.      Recommendation Summary                                          Reported
                       10     OIG recommended that the Contracting Officer,
                              Bureau of Administration, Office of Logistics
                              Management, attempt to recover $4.6 million from
                              First Kuwaiti Trading and Contracting to correct fire
                              system deficiencies for the staff diplomatic apartments
                              ($3.5 million for the housing contract) and repair the
                              water main distribution system joints ($1.1 million for
                              the infrastructure contract).
                       11     OIG recommended that the Contracting Officer, Bureau
                              of Administration, Office of Logistics Management,
                              attempt to recover approximately $1.5 million from First
                              Kuwaiti Trading and Contracting for the infrastructure
                              and housing contracts to correct deficiencies in the
                              plumbing traps at the New Embassy Compound.
                       12     OIG recommended that the Contracting Officer, Bureau
                              of Administration, Office of Logistics Management,
                              attempt to recover approximately $33 million that
                              was paid to First Kuwaiti Trading and Contracting to
                              perform and document the required design work for the
                              New Embassy Compound Baghdad contracts.
                       13     OIG recommended that the Contracting Officer, Bureau of
                              Administration, Office of Logistics Management, attempt to
                              recover approximately $38 million for the housing, infra-
                              structure, support facilities, chancery, and pre-engineered
                              buildings to compensate the U.S. Government for the higher
                              future maintenance costs and negotiate a settlement with
                              First Kuwaiti Trading and Contracting to fund the additional
                              long-term maintenance costs.
                       14     OIG recommended that the Contracting Officer,
                              Bureau of Administration, Office of Logistics
                              Management, attempt to recover approximately $3.8
                              million for the housing, infrastructure, site facilities,
                              and chancery contracts that First Kuwaiti Trading
                              and Contracting did not perform or that it performed
                              incorrectly related to commissioning activities.
MERO-I-11-05                  Performance Evaluation of PAE Operations and                      1/11
                              Maintenance Support at Embassy Kabul, Afghanistan
                        2     OIG recommended that the Bureau of Administration seek
                              reimbursement of $193,600 from PAE for award fees paid for
                              all four quarters of the base year of the contract (September
                              2005–September 2006), since performance criteria had not
                              yet been established or authorized for that year.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013      45
     Report               Rec.     Report Title                                                        First
     Number               No.      Recommendation Summary                                              Reported
                             3     OIG recommended that the Bureau of Administration seek
                                   reimbursement of $41,730 from PAE for award fees granted
                                   based on points earned for training in option years 1–3
                                   (September 2006–September 2009), since all training-related
                                   work was completed at the end of the base year (September
                                   2005–September 2006).
                             4     OIG recommended that Embassy Kabul stop payment of
                                   labor fees to PAE for repairs and other unexpected tasks when
                                   this work is performed by PAE personnel during routine duty
                                   hours under the firm fixed-price portion of the contract.
                            12     OIG recommended that the Bureau of Administration seek
                                   reimbursement of $248,820 from PAE for escort services
                                   invoiced and paid for, but not rendered, from March 2009
                                   through June 2010.
                            16     OIG recommended that the Bureau of Administration modify
                                   the PAE contract to include Federal Acquisition Regulation
                                   clause 52.222-50 (Combating Trafficking in Persons).
     MERO-I-11-02                  Performance Evaluation of PAE Operations and                          2/11
                                   Maintenance Support for the Bureau of International
                                   Narcotics and Law Enforcement Affairs’ Counternarcotics
                                   Compounds in Afghanistan
                             3     OIG recommended that the Bureau of International
                                   Narcotics and Law Enforcement Affairs ensure that
                                   a sufficient number of dedicated contracting officer’s
                                   representatives are physically present in Afghanistan to
                                   provide proper oversight of the contracts for operation and
                                   maintenance support at the counternarcotics compounds.
                             6     OIG recommended that the Bureau of International
                                   Narcotics and Law Enforcement Affairs, in
                                   coordination with Embassy Kabul and in consultation
                                   with the Drug Enforcement Administration, evaluate
                                   the physical security requirements at the Kabul
                                   counternarcotics compound.
                             7     OIG recommended that the Office of Acquisitions Management
                                   require PAE to incorporate engineering data into the main-
                                   tenance and operations support plan for the counternarcotics
                                   compound in Kunduz, resolve construction deficiencies in the
                                   laundry facility and kitchen, and assess the electric power needs
                                   of the compound before purchasing new diesel generators.
                             9     OIG recommended that the Bureau of International Narcotics
                                   and Law Enforcement Affairs ensure all guards at the coun-
                                   ternarcotics compound in Kunduz are familiar with standard
                                   operating procedures for security and that guards are getting
                                   sufficient rest and days off.




46   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
Report               Rec.     Report Title                                               First
Number               No.      Recommendation Summary                                     Reported
AUD-CG-11-30                  DOD and DOS Need Better Procedures To Monitor                7/11
                              and Expend DOD Funds for the Afghan National Police
                              Training Program
                       A.1    OIG recommended that the Executive Director, Bureau
                              of International Narcotics and Law Enforcement Affairs,
                              in coordination with the Chief Financial Officer, Bureau
                              of Resource Management, return DOD funds of $15.56
                              million that were outside the scope of the reimbursable
                              agreement by August 31, 2011. Specifically, return and
                              document the following amounts:
                                    a. $2.59 million potentially moved to Department
                                    of State administrative costs.
                                    b. $1.15 million obligated for the Department of
                                    Justice Federal Prosecutors Program.
                                    d. $11.81 million obligated for a DynCorp
                                    equitable adjustment for contract task order
                                    S-AQMPD-04F-0460, awarded in 2004 before the
                                    2006 agreement.
                       A.2    OIG recommended that the Executive Director, Bureau
                              of International Narcotics and Law Enforcement Affairs,
                              in coordination with the Contracting Officer, Bureau of
                              Administration, Office of Logistics Management, Office
                              of Acquisitions Management:
                                    a. Determine how much of the $68.21 million of
                                    unexpended obligations remaining on task order
                                    S-AQMPD-05F-4305 can be deobligated. As
                                    part of the review, include the DoD obligation
                                    amount that DynCorp certified as available
                                    for deobligation, as well as an analysis on the
                                    remaining unexpended obligation amounts. In
                                    addition, provide the Department of State, Office
                                    of Inspector General, supporting documentation
                                    for the remaining amount of the $68.21 million
                                    that the Bureau of International Narcotics and Law
                                    Enforcement Affairs identifies as still valid.
                                    b. Determine how much of the $23.04 million
                                    of DOD unexpended obligations remaining on
                                    the in-country air support contract (S-AQMPD-
                                    05-C-1103) can be deobligated. In addition,
                                    provide the Department of State, Office of
                                    Inspector General, supporting documentation for
                                    the remaining amount of the $23.04 million that
                                    the Bureau of International Narcotics and Law
                                    Enforcement Affairs identifies as still valid.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   47
     Report               Rec.     Report Title                                                          First
     Number               No.      Recommendation Summary                                                Reported
                            A.3    OIG recommended that the Executive Director, Bureau
                                   of International Narcotics and Law Enforcement Affairs,
                                   provide supporting documentation to the Department of
                                   State Inspector General by July 29, 2011, for the $2.25
                                   million of unsupported obligations identified in this
                                   report or return the $2.25 million to DOD by August 30,
                                   2011. Specifically, the Executive Director should review
                                   and, if necessary, deobligate the following amount:
                                         a. $1.65 million obligated for Department of State
                                         salaries using DOD funds provided in the 2006
                                         reimbursable agreement.
                            A.5    OIG recommended that the Executive Director, Bureau
                                   of International Narcotics and Law Enforcement Affairs:
                                         a. Return to DOD and properly record the $3.99
                                         million of unobligated DOD funds by August
                                         31, 2011, unless INL provides documentation to
                                         the Under Secretary of Defense for Policy and the
                                         Under Secretary of Defense (Comptroller)/Chief
                                         Financial Officer, DOD, and DOD officials agree
                                         that the obligations were within the scope of the
                                         reimbursable agreements.
                                         b. Develop, implement, and document adequate
                                         controls to ensure that the Bureau of International
                                         Narcotics and Law Enforcement Affairs uses DOD
                                         funds for specific purposes in accordance with laws
                                         and documents the appropriate use. Specifically,
                                         officials should:
                                              1. Designate the appropriate offices responsible
                                              for ensuring that the obligation directly relates to
                                              the requirements in the reimbursable agreements.
                                              2. Retain documentation supporting that
                                              the obligation is in compliance with the
                                              reimbursable agreement requirements.
                            A.6    OIG recommended that the Director, Bureau of
                                   Administration, Office of Logistics Management, Office of
                                   Acquisitions Management, require all contracting officers and
                                   supporting staff to take an appropriations law training class.
                            A.9    OIG recommended that the Executive Director, Bureau of
                                   International Narcotics and Law Enforcement Affairs; Under
                                   Secretary of Defense for Policy; and Under Secretary of Defense
                                   (Comptroller)/Chief Financial Officer, DOD, reach an agreement
                                   as to whether the $9.50 million obligation for a United Nations Law
                                   and Order Trust Fund–Afghanistan contribution was appropriately
                                   obligated. If officials do not reach an agreement, the Bureau of
                                   International Narcotics and Law Enforcement Affairs should
                                   return the $9.50 million of DOD funds obligated for a United
                                   Nations Law and Order Trust Fund–Afghanistan contribution.



48   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
Report               Rec.     Report Title                                                           First
Number               No.      Recommendation Summary                                                 Reported
                      C.2.b   OIG recommended that the Assistant Secretary of State,
                              Bureau of International Narcotics and Law Enforcement
                              Affairs, in coordination with the contracting officer, Bureau
                              of Administration, Office of Logistics Management, Office of
                              Acquisitions Management, for the Civilian Police (CIVPOL)
                              contract, review the approximately $9.4 million in ques-
                              tioned costs identified by the Defense Contract Audit Agency
                              (DCAA) and take action to recover those costs.
AUD-CG-11-44                  Afghan National Police Training Program Would Benefit                    8/11
                              From Better Compliance With the Economy Act and
                              Reimbursable Agreements
                        1     OIG recommended that the Assistant Secretary of State,
                              Bureau of International Narcotics and Law Enforcement
                              Affairs, in coordination with the Assistant Secretary of State,
                              Bureau of Resource Management and Chief Financial Officer:
                                    a. Identify and return to DOD the amount of
                                    Afghanistan Security Forces Fund appropriations
                                    that were improperly obligated and spent on
                                    the Justice Sector Support Program, Corrections
                                    System Support Program, and Counter Narcotics
                                    Advisory Teams. These costs would include, but
                                    not be limited to, life support, salaries, vehicles,
                                    fuel, maintenance, personal protective equipment,
                                    uniforms, immunizations, and travel.
                                    b. Review all available supporting documentation
                                    related to the Corrections System Support
                                    Program (CSSP) security salaries and recover any
                                    overpayments related to the $0.37 million paid to
                                    DynCorp for CSSP security salaries and identify
                                    and recover any additional payments made for CSSP
                                    security salaries on task orders 4305 and 5375.
                                    c. Determine whether the Bureau of International
                                    Narcotics and Law Enforcement Affairs improperly
                                    obligated DOD-provided Afghanistan Security
                                    Forces Fund appropriations for any other INL
                                    programs that were receiving support on the
                                    DOD-funded task orders. If so, identify and return
                                    to DOD the applicable Afghanistan Security Forces
                                    Fund appropriations by September 30, 2011.
                        3     OIG recommended that the Assistant Secretary of State, Bureau
                              of Resource Management and Chief Financial Officer, and the
                              Director, Defense Security Cooperation Agency, perform a joint
                              investigation of the potential Antideficiency Act violations for the
                              $1.05 million of funds obligated for Personal Services Contracts
                              and the estimated $75.60 million of funds obligated without
                              considering Economy Act and reimbursable agreement limitations.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013             49
     Report               Rec.     Report Title                                                     First
     Number               No.      Recommendation Summary                                           Reported
     AUD-IP-12-02                  Audit of Bureau of East Asian and Pacific Affairs                  10/11
                                   Compliance With Trafficking in Persons Requirements
                             1     OIG recommended that the Office to Monitor and Combat
                                   Trafficking in Persons include, in the Foreign Affairs Manual,
                                   the U.S. Government policy regarding trafficking in persons
                                   (TIP) to include the definition of TIP activity and informa-
                                   tion on the prohibition against involvement in acts of TIP for
                                   Department of State personnel and contractors, the associated
                                   penalties for violations, and the mechanism to report such
                                   violations.
                             2     OIG recommended that the Office to Monitor and Combat
                                   Trafficking in Persons, in consultation with the Office of the
                                   Legal Advisor and the Director General of Human Resources,
                                   develop and include a trafficking in persons policy in the
                                   Department of State Standards of Conduct.
                             4     OIG recommended that the Office to Monitor and Combat
                                   Trafficking in Persons, in consultation with the Foreign
                                   Service Institute and the Director General of Human
                                   Resources, expand TIP training to all Department of State
                                   employees, to include increasing awareness of the U.S.
                                   Government’s zero tolerance policy towards TIP and reducing
                                   the incidence of TIP activity involving contractor personnel
                                   and employees who represent the United States abroad.
     AUD-IP-12-03                  Improved Contract Documentation and Monitoring by                  11/11
                                   the Regional Procurement Support Office Are Needed
                                   for Construction Projects Associated With the President’s
                                   Emergency Plan for AIDS Relief (PEPFAR)
                             3     OIG recommended that the Regional Procurement Support
                                   Office in Frankfurt, Germany, review existing PEPFAR
                                   construction contracts and reclaim any contingency costs
                                   inappropriately included in contracts as practicable.
                             5     OIG recommended that the Regional Procurement Support
                                   Office in Frankfurt, Germany, require posts with substantial
                                   planned costs for PEPFAR construction projects to obtain a
                                   technical advisor with construction expertise for monitoring
                                   construction contracts.
     AUD-HCI-12-30                 Audit of Department of State Drug-Free Workplace                   2/12
                                   Program Plan
                             1     OIG recommended that the Bureau of Human Resources
                                   develop and implement drug testing procedures for
                                   Department employees serving in sensitive positions overseas.




50   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
Report               Rec.     Report Title                                                       First
Number               No.      Recommendation Summary                                             Reported
                        2     OIG recommended that the Bureau of Human Resources,
                              in coordination with the Office of Medical Services and the
                              Office of the Legal Adviser, develop a random sampling meth-
                              odology, obtain approval from the Interagency Coordinating
                              Group Executive Committee to employ the methodology,
                              and implement random drug testing as prescribed by the
                              Department Drug-Free Workplace Program Plan.
AUD-MERO-12-29                Evaluation of the Antiterrorism Assistance Program for               4/12
                              Countries Under the Bureaus of Near Eastern Affairs and
                              South and Central Asian Affairs
                        1     OIG recommended that the Bureau of Diplomatic Security,
                              in coordination with the Bureau of Counterterrorism, estab-
                              lish a monitoring and evaluation system that includes clearly
                              defined and measurable outcome-oriented strategic goals and
                              program objectives; measurable performance indicators that
                              clearly link to strategic goals and program objectives; baseline
                              data and annual performance targets for each indicator; and
                              descriptions of how, when, and by whom performance data
                              will be collected, analyzed, and reported.
                        2     OIG recommended that the Bureau of Diplomatic Security,
                              in coordination with the Bureau of Counterterrorism,
                              develop a definition for what constitutes a developmental
                              Anti-Terrorism Assistance (ATA) program, consistently apply
                              that definition to country programs, and ensure that partner
                              country sustainability timelines are established for develop-
                              mental ATA programs.
                        7     OIG recommended that the Bureau of Diplomatic Security
                              review the types of the remaining equipment for the Iraq
                              program stored in the Northern Virginia warehouse, evalu-
                              ate the equipment’s utility, and determine an appropriate
                              disposition.
AUD-SI-12-36                  Limited Scope Audit of Department of State Management                5/12
                              of the Afghanistan Civilian Airlift
                        2     OIG recommended that the Bureau of South and Central
                              Asian Affairs immediately update the Global Employment
                              Management System for all civilian uplift personnel leaving
                              Afghanistan by changing their organization code to the code
                              of their newly assigned posts effective on the date the person-
                              nel leave Afghanistan.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013         51
      Report              Rec.     Report Title                                                         First
      Number              No.      Recommendation Summary                                               Reported
      AUD-MERO-12-43               Evaluation of Invoices and Payments for the Embassy                    8/12
                                   Baghdad Operations and Maintenance Contract
                             3     OIG recommended that the Bureau of Administration, Office
                                   of Logistics Management, Office of Acquisitions Management,
                                   direct the contracting officer to conduct a comprehensive review
                                   of all contractor invoices before the Embassy Baghdad operations
                                   and maintenance contract is closed to determine whether the
                                   contractor submitted adequate supporting documentation for all
                                   reimbursable costs, to include the $1.7 million identified in this
                                   report. If not, the contracting officer should request supporting
                                   documentation from the contractor and determine whether the
                                   costs were allowable under the contract terms. If the reimbursable
                                   costs cannot be supported or are not allowable under the terms of
                                   the contract, the costs should be recovered from the contractor.
      AUD-IT-12-44                 Audit of Department of State Access Controls for Major                 9/12
                                   Applications
                             6     OIG recommended that the Bureau of Human Resources
                                   institute a formal process to notify system owners on a
                                   monthly basis of employee departures to ensure the timely
                                   removal of accounts of departing or transferring employees.
      AUD-SI-12-49                 Outline for Action: Physical Security Concerns at Embassy              9/12
                                   Quito
                             4     OIG recommended that Embassy Quito consider options to
                                   mitigate the setback deficiency.



     SUMMARY OF OFFICE OF AUDITS REPORTS WITHOUT
     MANAGEMENT DECISION FOR MORE THAN SIX MONTHS
     Report Number: AUD/CG-11-30
     Subject: Department of Defense Funds Provided to Department of State for the Afghan
     National Police
     Date Issued: July 11, 2011.
     Reason for not being resolved: OIG recommended that the Department perform
     a joint investigation with the Defense Security Cooperation Agency of potential
     Antideficiency Act violations of funds obligated outside the scope of the reimburs-
     able agreements. The Bureau of Comptroller and Global Financial Services was
     requested to respond to recommendations by February 6, 2012. However, OIG had
     not received a response as of the end of this reporting period. Therefore, six recom-
     mendations (Nos. A.8.a, b, c, d, e, and f) remain unresolved.
     Projected date of resolution: December 2013.



52   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
Report Number: AUD/CG-11-44
Subject: Afghan National Police Training Program Would Benefit From Better
Compliance With the Economy Act and Reimbursable Agreements
Date Issued: August 25, 2011.
Reason for not being resolved: OIG recommended that the Department of State identify
and return funds to the Department of Defense that were improperly obligated; develop and
implement policies and procedures to ensure that any appropriation limitations on funds
transferred to other U.S. Government agencies were taken into account before obligating
funds for personal services contracts; and develop policies and procedures to ensure that
before obligating funds under an Economy Act order, the Department validated that the
ordering agency had the necessary authority to obligate funds for those purposes. The Bureau
of International Narcotics and Law Enforcement Affairs was requested to respond to the
recommendation by January 9, 2012. However, OIG had not received a response as of the end
of this reporting period. Therefore, two recommendations (Nos. 1.d and e) remain unresolved.
Projected date of resolution: December 2013.



Report Number: AUD/SI-12-36
Subject: Limited-Scope Audit of Department of State Management of the Afghanistan
Civilian Uplift
Date Issued: May 31, 2012.
Reason for not being resolved: OIG recommended that the Department of
State codify, in the Foreign Affairs Manual, the practice of updating the Global
Employment Management System for all Department personnel by changing the
organization code to the code for the newly assigned posts effective on the date that
the personnel leave post and direct overseas posts and domestic offices that have
civilian personnel being assigned to Afghanistan or to another post where restricted
funds are being used to immediately update the Global Employment Management
System by changing the organization code to the code of the newly assigned posts
for incoming and departing Afghanistan civilian uplift personnel. The Bureau of
Human Resources was requested to respond to the recommendation by July 8, 2013.
However, OIG had not received a formal response as of the end of this reporting
period. Therefore, two recommendations (Nos. 1 and 3) remain unresolved.
Projected date of resolution: November 2013.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   53
     Report Number: AUD-MERO-13-20
     Subject: Evaluation of Emergency Action Plans for U.S. Mission Afghanistan
     Date Issued: March 21, 2013.
     Reason for not being resolved: OIG recommended that Embassy Kabul establish formal
     agreements on the roles and responsibilities of non-Department of State law enforcement
     agencies during events requiring implementation of the Emergency Action Plan. On
     September 9, 2013, Embassy Kabul responded that an informal information memorandum
     had been completed and considered it as sufficient action. OIG does not agree that this
     information memorandum constitutes formal response and assistant agreements between
     the embassy and those agencies. In addition, the memorandum provided by the embassy
     does not provide details such as the conditions under which an agency would respond, the
     specific expectations and responsibilities for the agency, and the training and drills agency
     staff must complete. OIG also recommended that the Bureau of Diplomatic Security estab-
     lish a process to validate the adequacy of Emergency Action Plans at high-threat posts, such
     as Embassy Kabul, by reviewing and assessing the resources listed in the plans for addressing
     each type of Emergency Action Plan emergency. On September 10, 2013, the Bureau of
     Diplomatic Security provided copies of processes that OIG found insufficient at the time
     of the audit. Therefore, two recommendations (Nos. 1 and 3) remain unresolved.
     Projected date of resolution: February 2014.

     REVISED MANAGEMENT DECISIONS
     None.

     MANAGEMENT SUCCESS IN RESOLVING AND
     IMPLEMENTING RECOMMENDATIONS
     Audit of Nonproliferation and Disarmament Fund Controls Over Contracting
     and Project Management and Integrity of Financial Data (AUD-FM-13-17)
     In December 2012, OIG recommended that the Nonproliferation and Disarmament
     Fund (NDF) develop a standard timeframe for closing out projects. OIG also recom-
     mended that NDF implement a policy to ensure that standard timeframes are met
     for project closeouts, or that the reasons for delay are documented. In response to this
     recommendation, NDF provided evidence that $19,168,162 was returned to the NDF
     account for funds that were (1) obligated but unspent on projects completed under
     budget, and/or (2) unspent because the projects were canceled, or the funds were not
     used and not obligated. These funds will be available for use on new NDF projects.

     SUMMARY OF INSPECTION REPORTS WITHOUT
     MANAGEMENT DECISION FOR MORE THAN 6 MONTHS
     None.

54   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
REVISED MANAGEMENT DECISIONS
None.

MANAGEMENT SUCCESS IN RESOLVING AND
IMPLEMENTING RECOMMENDATIONS

Compliance Follow-up Review of the Inspection of Consulate General Hong
Kong, China (ISP-C-12-29A)
In the 2012 Compliance Followup Review Report of Consulate General Hong Kong,
OIG recommended that the mission abolish two locally employed staff positions in the
immigrant visa and fraud prevention units, and review U.S. direct-hire staffing for information
management specialists. In response to OIG’s recommendations, the Department
abolished two locally employed staff positions and reprogrammed the information
management specialist position, resulting in $679,584 in funds put to better use.

Inspection of Embassy Abidjan, Cote d’Ivoire (ISP-I-08-10A)
In the 2008 inspection report of Embassy Abidjan, OIG recommended that Embassy Abidjan
sell the existing recreational center; and the embassy reported sale of the property at $1.1 million.

Inspection of Embassy Warsaw, Poland (ISP-I-11-64A)
In the 2011 inspection report of Embassy Warsaw, OIG recommended the
elimination of several positions. Embassy Warsaw reported that three entry-level
officer positions and four locally employed staff positions were abolished for a total
cost savings of $2,432,000.

Inspection of Embassy Bandar Seri Begawan, Brunei (ISP-I-12-35A)
In the 2012 inspection report of Embassy Bandar Seri Begawan, OIG found that
the Malay language designation for the public affairs officer position was not
essential, and recommended that the designation be eliminated. In response to OIG’s
recommendation, the Department approved removing the language designation from
the position, resulting in an estimated $157,628 in funds put to better use.

Inspection of Embassy Manila, Philippines (ISP-I-13-10)
In the 2013 inspection of Embassy Manila, OIG recommended the elimination of a
general services officer position. The position was abolished resulting in funds put to
better use of approximately $571,000 in annual recurring costs.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013     55
     SIGNIFICANT INSPECTIONS RECOMMENDATIONS
     PENDING FINAL ACTION

     Report          Rec    Report Title                                                           First
     Number          No.    Recommendation Summary                                                 Reported
     ISP-I-11-11            Inspection of the Department -Required and Congressionally             10/2010
                            Mandated Reports: Assessment of Resource Implications
                       3    The Office of Management Policy, Rightsizing and Innovation,
                            in coordination with the Bureau of Resource Management,
                            should direct all missions to document the approximate costs (to
                            reflect time and pay scales of personnel involved) that are devoted
                            to the preparation of congressionally mandated and Department
                            reports, and include this data in annual budget requests.
     ISP-I-11-55A           Inspection of Embassy Seoul, Korea                                      08/2011
                      12    OIG recommended that the Bureau of Overseas Buildings
                            Operations should identify and evaluate the costs associated
                            with the United States Forces Korea’s departure from the
                            Yongsan Garrison and accelerate the construction of Embassy
                            Seoul’s new embassy compound project on the Capital
                            Security Construction Program schedule.
     ISP-I-13-23            Review of Department of State Implementation of Jeddah ARB              03/2013
                       1    OIG recommended that the Bureau of Overseas Buildings
                            Operations provide compound emergency sanctuaries
                            for employees who work in buildings that do not have an
                            approved safe haven or safe area.
                       2    OIG recommended that the Bureau of Overseas Buildings
                            Operations request an increase in funding for the Compound
                            Security Upgrade Program to reflect the additional
                            requirement for compound emergency sanctuaries.
     ISP-I-13-24            Review of the Process for Establishing Language Designated              09/2013
                            Positions
                       3    OIG recommended that the Bureau of Budget and Planning
                            determine training costs by language and level and make those
                            costs available to missions, bureaus, under- secretaries, and deputy
                            secretaries that recommend and approve language requirements.
                       4    OIG recommended that the Bureau of Budget and Planning
                            determine the best means for holding bureaus accountable for the
                            training costs associated with their language designated positions.
     ISP-I-13-44A           Special Review of the Accountability Review Process                    09/2013
                       2    OIG recommended that the Office of Management Policy,
                            Rightsizing and Innovation should coordinate with the
                            Permanent Coordinating Committee members to establish
                            guidelines that broaden the committee’s ability to task
                            alternative reviews.




56   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
Report          Rec    Report Title                                                          First
Number          No.    Recommendation Summary                                                Reported
                  4    OIG recommended that the Office of the Under Secretary
                       of State for Management, in coordination with the Office
                       of the Legal Adviser, should amend 12 FAM 030 to codify a
                       transparent and fully documented process for vetting security-
                       related incidents to identify those that do not warrant convening
                       the Permanent Coordinating Committee and ensuring that this
                       information is communicated to the Secretary.
                  5    OIG recommended that the Office of the Under Secretary
                       of State for Management, in coordination with the Office of
                       the Legal Adviser, should establish written guidelines for the
                       Permanent Coordinating Committee regarding criteria for
                       “serious injury,” “significant destruction of property,” and “at or
                       related to a U.S. mission abroad.”
                  6    OIG recommended that the Office of the Under Secretary
                       of State for Management should contact the Department
                       of Defense counterpart and request that the Department
                       of Defense fulfill its statutory obligation to provide the
                       Department of State with investigation reports of security-
                       related incidents that involve Department of State personnel.
                 10    OIG recommended that the Bureau of Administration should
                       amend 1 FAM 30 to institutionalize the Deputy Secretary
                       for Management and Resources’ responsibility for oversight
                       of implementation of the Accountability Review Board
                       recommendations.
                 11    OIG recommended that the Bureau of Diplomatic Security
                       should amend 12 FAM 032 to reflect the Deputy Secretary for
                       Management and Resources’ oversight responsibility of the Office of
                       Management Policy, Rightsizing and Innovation for implementation
                       of Accountability Review Board recommendations.
                 12    OIG recommended that the Bureau of Diplomatic Security
                       should implement a plan to strengthen security beyond
                       reliance on host government-security support at high-risk,
                       high-threat posts.
                 15    OIG recommended that the Office of the Under Secretary
                       of State for Management should issue new guidance
                       clarifying the process by which tripwires are, in the first
                       instance, developed at post and approved in Washington and
                       emphasizing that tripwire plans, once duly approved, will
                       serve as the definite blueprint for the immediate actions to be
                       taken by posts when a tripwire is tripped.
                 16    OIG recommended that the Foreign Service Institute,
                       in coordination with the Bureau of Diplomatic Security,
                       should develop a comprehensive program of security, crisis
                       management, and risk management training for Department
                       personnel, with an emphasis on those assigned to or having
                       responsibility for high-risk, high-threat posts.



OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013     57
     Report          Rec    Report Title                                                     First
     Number          No.    Recommendation Summary                                           Reported
                      17    OIG recommended that the Office of the Under Secretary
                            of State for Management, in coordination with the Bureau
                            of Diplomatic Security and Bureau of Overseas Buildings
                            Operations, should develop minimum security standards
                            that must be met prior to occupying facilities located in
                            Department of State-designated high-risk, high-threat
                            environments and include new minimum security standards of
                            occupancy in the Foreign Affairs Handbook as appropriate.
                      19    OIG recommended that the Office of Management Policy,
                            Rightsizing and Innovation, in coordination with the
                            Bureau of Human Resources and the Office of the Legal
                            Adviser, should prepare clear guidelines for Accountability
                            Review Boards pertaining to the drafting and handling of
                            recommendations dealing with issues of poor performance of
                            Department of State personnel.
                      20    OIG recommended that the Office of Management Policy,
                            Rightsizing and Innovation, in coordination with the Bureau
                            of Diplomatic Security and the Bureau of Intelligence and
                            Research, should develop an annual report to the Deputy
                            Secretary outlining implementation of Accountability Review
                            Board recommendations, with an emphasis on identifying
                            problems, the way forward, and the impact of the Department
                            of State’s global security program.
     ISP-I-13-52            Review of the Department of State Ethics Program                  9/2013
                       2    The Office of Management Policy, Rightsizing and
                            Innovation, in coordination with the Bureau of Human
                            Resources and the Office of the Legal Adviser, should identify
                            positions within the Department of State having duties
                            that require submission of confidential financial disclosure
                            reports and should maintain this information on a human
                            resources database for periodic updating by each bureau in the
                            Department.
                       4    The Office Management Policy, Rightsizing and Innovation,
                            in coordination with the Bureau of Human Resources
                            and the Office of the Legal Adviser, should identify the
                            individuals with Senior Foreign Service and Senior Executive
                            Service rank, Schedule C employees, and any others who
                            are automatically required to file initial and annual public
                            financial disclosure reports, and should determine how to
                            maintain this information on a human resources database.




58   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
APPENDIX 5: AUDITS PERFORMED
BY CONTRACTORS

                                                                                   Type of
Report Number        Report Title                                    Contractor
                                                                                   Engagement
AUD-FM-13-36         Audit of Selected Working Capital Fund Cost     Kearney &     Performance
                     Center Financial Results                        Company       Audit
AUD-CG-13-42         Audit of Norwegian People’s Aid Under           Gelman,       Performance
                     Department of State and U.S. Agency for         Rosenberg &   Audit
                     International Development Multiple Agreements   Freedman,
                     for Year Ended December 31, 2010                CPAs




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   59
     APPENDIX 6: PEER REVIEW
     ACTIVITY

     During this semiannual reporting period, the Department of State OIG reviewed
     the system of quality control for the audit function of the Federal Deposit Insurance
     Corporation’s (FDIC) OIG in effect during the period April 1, 2011, through March
     31, 2013. A system of quality control encompasses an OIG’s organizational structure
     and the policies adopted and procedures established to provide it with reasonable
     assurance of conforming with generally accepted government auditing standards
     (GAGAS). GAGAS requires government audit organizations to undergo periodic
     external peer reviews to determine whether OIG’s internal quality control system is
     adequate as designed and has been complied with to provide reasonable assurance
     that applicable auditing standards, policies, and procedures have been met. The
     review of the FDIC OIG was conducted in conformity with standards and guidelines
     established by the Council of the Inspectors General on Integrity and Efficiency. In
     OIG’s opinion, the system of quality control system of the FDIC OIG’s audit orga-
     nization had been suitably designed and complied with to provide reasonable assur-
     ance that the organization would perform and report in conformity with applicable
     professional standards in all material respects. The FDIC OIG received a peer review
     rating of pass. Three types of peer review rating may be rendered: pass, pass with
     deficiencies, and fail.
     During a prior reporting period (October 1, 2012, to March 31, 2013), the
     Department of the Interior (DOI) OIG conducted a peer review of the system of
     quality control of the Department of State OIG, which received a peer review rating
     of pass. The letter of comment accompanying DOI’s report contained one recom-
     mendation, and the Department of State OIG had completed all actions for the
     recommendation as of September 3, 2013.
     The OIG Office of Investigations (INV) did not have an external peer review of
     its investigative operations during this reporting period. The last review conducted
     in September 2011 by the Railroad Retirement Board OIG found the Office of
     Investigations to be in compliance with the internal safeguards and management
     procedure standards set by the Council of the Inspectors General on Integrity and
     Efficiency, and did not make any formal recommendations in its report. INV’s next
     peer review will be conducted by the Tennessee Valley Authority in 2014.




60   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
BROADCASTING
  BOARD OF
 GOVERNORS
OFFICE OF AUDITS

CONTRACTS AND GRANTS

OIG Outline for Action: Management Attention Needed To Improve
Broadcasting Board of Governors Acquisition Functions (AUD-CG-IB-13-43)
During an audit to determine whether the Broadcasting Board of Governors (BBG)
was in compliance with Federal regulations for conducting selected acquisition func-
tions, including contract oversight, OIG’s preliminary review of 34 contracts identi-
fied notable areas of concern. These areas included significant noncompliance with
the Federal Acquisition Regulation (FAR) and two violations of the Anti-Deficiency
Act (ADA).
Specifically, OIG determined that BBG did not adhere to the FAR during the pre-
solicitation, pre-award, and contract administration phases of the acquisition process,
to include, but not limited to, not adequately performing full and open competition
or price determinations. In addition, BBG did not provide adequate oversight of the
acquisition process, as was evidenced by a lack of contracting officer involvement, a
failure to designate contracting officer’s representatives, and weak quality assurance
procedures. Finally, OIG identified two practices that resulted in BBG’s repeated
violation of the ADA: BBG entered into hundreds of personal services contracts
without statutory authority, and contractors regularly worked without valid contracts
in place.
OIG recommended that the Director of the International Broadcasting Bureau (IBB)
take appropriate actions to address the ADA violations and report on those actions
as required by the U.S. Code and that the Director obtain the assistance of outside
experts in Federal acquisition and contracting to conduct an acquisition assessment
with the goal of ensuring that BBG implements acquisition policies and procedures
that are in accordance with the FAR.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   63
     OFFICE OF INSPECTIONS

     Review of Broadcasting Board of Governors’ Operations in Baghdad, Iraq
     (ISP-IB-13-26)
     OIG found no serious management issues at the bureaus of Radio Free Iraq (RFI)
     or the Middle East Broadcast Network (MBN); however, RFI employees were
     concerned with the rumored closure of their bureau, and MBN employees were vocal
     about the need for new office space, an unclear budget, and gaps in communication
     with MBN headquarters. OIG recommended that RFI and MBN implement and
     distribute a strategic merger plan with details on budgets, staffing, and milestones.

     Review of Broadcasting Board of Governors’ Operations in Kyiv, Ukraine
     (ISP-IB-13-46)
     OIG found no significant management issues at the Radio Free Europe/Radio
     Liberty (RFE/RL) news bureau or with the Voice of America (VOA) contract jour-
     nalist in Kyiv. VOA had recently reduced its presence in Ukraine, and the RFE/RL
     news bureau in Kyiv had experienced budget reductions as a result of sequestration;
     both broadcast entities expressed concerns about the impact future reductions might
     have on their news coverage inside Ukraine. Through a number of activities, includ-
     ing use of social media and an intern program, RFE/RL was able to implement a
     number of the Broadcasting Board of Governors’ (BBG) strategic goals.

     Inspection of Voice of America’s Latin America Division (ISP-IB-13-49)
     The Voice of America Latin America Division, which includes the Spanish Service
     and the Creole Service, was reaching a Spanish-speaking audience of 26.7 million
     in Latin America and its Creole radio broadcasts continued to be the most trusted
     news organization in Haiti. OIG identified the need for greater sharing of resources
     between the Latin American Division and the Office of Cuba Broadcasting. OIG
     recommended that IBB bring its contract administration in line with government
     regulations and recommended that VOA senior management assess the Latin
     America radio production unit.

     Inspection of U.S. International Broadcasting to Russia (ISP-IB-13-50)
     The Voice of America Russian Service and the Radio Free Europe/Radio Liberty
     Russian Service had to adapt to an increasingly hostile environment for foreign
     broadcasters in Russia by shifting to a digital strategy. RFE/RL’s decision to reduce
     the staff of its Russian Service was logical in light of the Russian Government’s


64   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
restrictions on broadcasting operations and the resulting decision to focus on
digital platforms. However, implementation of this strategy was costly and signifi-
cantly flawed. Radio Free Europe/Radio Liberty management, IBB staff, and the
Broadcasting Board of Governors all bear responsibility for the missteps. OIG recom-
mended that BBG implement a comprehensive strategy for U.S. international broad-
casting in Russia and that the Voice of America Russian Service and the RFE/RL
Russian Service implement specific collaborative strategies for their respective news
bureaus.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   65
     APPENDIX 1: INVESTIGATIVE
     ACTIVITIES

               Preliminary Inquiries
                 Opened                                                             0
                 Closed                                                             0
               Investigations
                 Opened                                                             1
                 Closed                                                             0
                 Pending (9/30/13)                                                  4
               Criminal Actions
                 Referrals for Prosecution                                          0
                 Indictments/Informations                                           0
                 Convictions                                                        0
                 Sentencings (Months Imprisonment)                                  0
                 Sentencings (Months Probation)                                     0
                 Declinations                                                       0
               Civil Actions
                 Civil Referrals                                                    0
                 Civil Judgments                                                    0
                 Civil Declinations                                                 0
               Administrative Referrals
                 Referrals for Personnel Action                                     0
                 Suitability Referrals to DS                                        0
                 Contractor Suspensions/Debarment Referrals to OPE                  0
               Administrative Actions
                 Removals                                                           0
                 Suspensions                                                        0
                 Reprimand/Admonishments/Warning Memorandum                         0
                 Contractors/Grantees Suspended                                     0
                 Contractors/Grantees Debarred                                      0
                 Contractors/Grantees High Risk                                     0
               Monetary Recoveries
                 Criminal Fines/Recoveries                                         $0
                 Civil Recoveries                                                  $0
                 Administrative Recoveries                                         $0
                Total Investigative Recoveries                                     $0



66   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
APPENDIX 2: REPORTS ISSUED

Report Number            Report Title

AUD-CG-IB-13-43          Outline for Action: Management Attention Needed to Improve Broadcasting
                         Board of Governors Acquisition Functions
ISP-IB-13-26             Review of Broadcasting Board of Governors’ Operations in Baghdad, Iraq
ISP-IB-13-46             Review of Broadcasting Board of Governors’ Operations in Kyiv, Ukraine
ISP-IB-13-49             Inspection of Voice of America’s Latin America Division
ISP-IB-13-50             Inspection of U.S. International Broadcasting to Russia




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   67
     APPENDIX 3: SAVINGS AND MORE
     EFFECTIVE USE OF RESOURCES


     TABLE 1: INSPECTOR GENERAL ISSUED REPORTS WITH
     QUESTIONED COSTS
     None.


     TABLE 2: INSPECTOR GENERAL ISSUED REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
     None.




68   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
APPENDIX 4: RESOLUTION OF
REPORTS AND RECOMMENDATIONS

SIGNIFICANT AUDIT RECOMMENDATIONS PENDING FINAL
ACTION
None.


SUMMARY OF OFFICE OF AUDITS REPORTS WITHOUT
MANAGEMENT DECISION FOR MORE THAN SIX MONTHS
None.


REVISED MANAGEMENT DECISIONS
None.


MANAGEMENT SUCCESS IN RESOLVING AND IMPLEMENTING
RECOMMENDATIONS
None.




OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013   69
     ABBREVIATIONS

     Abbreviation          Full Name

     ADA                   Anti-Deficiency Act

     AF                    Bureau of African Affairs

     ARB                   Accountability Review Board

     BBG                   Broadcasting Board of Governors

     CA                    Bureau of Consular Affairs

     CSSP                  Corrections System Support Program

     Department            U.S. Department of State

     FAR                   Federal Acquisition Regulation

     FISMA                 Federal Information Security Management Act of 2002

     FRC                   Florida Regional Center

     HR                    Bureau of Human Resources

     IBB                   International Broadcasting Bureau

     IBWC                  United States Section, International Boundary and Water Commission

     INL                   Bureau of International Narcotics and Law Enforcement Affairs

     LE                    locally employed

     MBN                   Middle East Broadcast Network

     OIG                   Office of Inspector General

     PMS                   Payment Management System

     PRM                   Bureau of Population, Refugees and Migration

     RFE/RL                Radio Free Europe/Radio Liberty

     RFI                   Radio Free Iraq

     RSC                   Regional Service Center

     RSO                   Regional Security Officer

     USAID                 U.S. Agency for International Development

     VOA                   Voice of America



70   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - APRIL 1, 2013 TO SEPTEMBER 30, 2013
                   Index of Reporting Requirements
          Inspector General Act of 1978, as amended
Requirement            Subject                                                     Page Number(s)

Section 4(a)(2)        Review of legislation and regulations                              7

Section 5(a)(1)        Summary of Significant problems, abuses, and deficiencies         3-7

Section 5(a)(2)        Significant recommendations for corrective action                43-58

Section 5(a)(3)        Prior significant recommendations unimplemented             43-52, 56-58, 69

Section 5(a)(4)        Matters referred to prosecutive authorities                      33-36

Section 5(a)(5)        Information or assistance refused                                none

Section 5(a)(6)        List of reports issued                                         37-39, 67

Section 5(a)(7)        Summaries of significant reports                              11-32, 63-65

Section 5(a)(8)        Reports – questioned costs                                       40, 68

Section 5(a)(9)        Reports – funds to be put to better use                          41, 68

Section 5(a)(10)       Prior reports unresolved                                         52-54

Section 5(a)(11)       Significant revised management decisions                         none

Section 5(a)(12)       Significant management decisions with which OIG disagreed        none

Section 5(a)(14)       Peer review results                                               60

Section 5(a)(15)(16)   Status of peer review recommendations                             60
    UNITED STATES DEPARTMENT OF STATE
AND THE BROADCASTING BOARD OF GOVERNORS
       OFFICE OF INSPECTOR GENERAL
